Office of Inspector General
U.S. General Services Administration



Semiannual Report
to the Congress
October 1, 2011 - March 31, 2012
GSA’s SIGNIFICANT MANAGEMENT CHALLENGES
The Congress requested the Inspectors General of major federal agencies to report on the most
significant management challenges facing their respective agencies. Our strategic planning
process commits us to addressing these critical issues. The following table briefly describes the
challenges we have identified for GSA and references related work products issued by the GSA
OIG and discussed in this semiannual report.

CHALLENGES                 BRIEF DESCRIPTION OF CHALLENGE                                PAGE
ACQUISITION                GSA’s procurement organization awards and administers         1
PROGRAMS                   government-wide contracts worth hundreds of billions of
                           dollars. With growing programs and shrinking numbers of
                           qualified acquisition personnel, attention to important
                           fundamentals such as ensuring competition, meaningful
                           price analysis, and implementation of statutory and
                           regulatory compliance-type requirements has diminished.

INFORMATION                Improved planning, development, and implementation of         No
TECHNOLOGY                 Information Technology systems and services is needed         Reports
                           to ensure quality data and to support business decisions.     This
                           GSA also needs to improve the protection of sensitive         Period
                           information and address emerging risks associated with
                           cloud computing.

FINANCIAL                  GSA systems, including its financial system of record         3
REPORTING                  (Pegasys), continue to have deficiencies in
                           interoperability and interfaces. As a consequence, GSA
                           management continues to rely heavily on manual
                           workarounds and significant adjusting entries to prepare
                           the financial statements and related note disclosures.

PROTECTION OF               GSA is responsible for protecting the life and safety of     5
FEDERAL                    employees and public visitors in federal buildings. The
FACILITIES AND             increased risks from terrorism have greatly expanded the
PERSONNEL                  range of vulnerabilities. A broadly integrated security
                           program is required.

GREENING                   With its major role in federal building construction and      No
INITIATIVE—                operations, GSA faces challenges to lead change in            Reports
SUSTAINABLE                achieving its goals for sustainability and a Zero             This
ENVIRONMENTAL              Environmental Footprint                                       Period
STEWARDSHIP

FEDERAL                    Faced with an aging, deteriorating inventory, and             No
BUILDINGS FUND             significant reductions to its budget, GSA is challenged in    Reports
                           making the best use of available funds to deliver high        This
                           performance workplaces on schedule and within budget.         Period

AMERICAN                   Mandated to obligate $5.5 billion for many building           5
RECOVERY AND               projects within a 20-month period, GSA’s shortened
REINVESTMENT               planning and contracting phases will likely result in
ACT OF 2009                continual challenges as Recovery Act-funded projects
                           move into the construction phase.
                           Foreword



On behalf of the General Services Administration’s (GSA) Office of Inspector General
(OIG), I am pleased to provide this semiannual report to the Members of Congress and the
people of the United States. This report reflects the OIG’s effectiveness in combating fraud,
waste, and abuse in GSA’s programs and operations.

Since October 1, 2011, our office issued 45 audit reports and recommended over $316
million in funds be put to better use and questioned costs. We also made 486 referrals for
criminal prosecution, civil litigation, and administrative action. In this reporting period,
management agreed with $124 million of our audit findings, while civil settlements and
court-ordered investigative recoveries totaled over $218 million.

Our Office of Audits has continued to focus on GSA’s Multiple Award Schedule program,
with a concentration in preaward audits, as well as oversight of GSA’s American Recovery
and Reinvestment Act of 2009 projects and financial reporting. Our Office of Investigations
focused on major procurement fraud, construction fraud, and counterfeit product
identification in the federal government’s supply line. The OIG Office of Forensic Auditing
continued its proactive data analysis to uncover potentially fraudulent activity.

Chief among the OIG’s achievements this semiannual period was Oracle Corporation’s
$199.5 million settlement to resolve qui tam allegations that it defrauded the United States
by intentionally failing to disclose discounts available to its commercial customers.

On behalf of the U.S. Attorney General’s Financial Fraud Enforcement Task Force, I
continued my collaborative effort of working with the public and private sectors, to prevent
and detect fraud in government contracts and procurement activities.

I want to express my appreciation for the accomplishments of the OIG employees and their
continuing dedication to public service. I thank the Members of Congress, the Office of
Management and Budget, and employees throughout GSA for their continued support.




Brian D. Miller
Inspector General
April 30, 2012




                                                             October 1, 2011 – March 31, 2012 i
(This page was intentionally left blank.)


ii  Semiannual Report to the Congress
                                                Table of Contents

                                                                                                                                                                            Page

OIG Profile  . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . iv

OIG Organization Chart . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . v

Summary of OIG Performance .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . vi

Executive Summary  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . vii

Management Challenges  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1

           Acquisition Programs .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1

           Financial Reporting . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 3

           Protection of Federal Facilities and Personnel .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 5

           American Recovery and Reinvestment Act of 2009 .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 5

           Other Initiatives . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 9

Promoting and Protecting Integrity .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 10

Forensic Auditing, Evaluation, and Analysis  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 14

Government-Wide Policy Activities .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 15

Statistical Summary of OIG Accomplishments . . . . . . . . . . . . . . . . . . . . . . . . . . 18

Appendices

           Appendix I – Significant Audits from Prior Reports .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 25

           Appendix II – Audit Report Register .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 29

           Appendix III – OIG Reports over 12 Months Old,  . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 34
             Final Agency Action Pending

           Appendix IV – Government Contractor Significant Report Findings . .  .  .  .  .  .  .  .  .  . 39

           Appendix V – OIG Reports Without Management Decision .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 40

           Appendix VI – Peer Review Results .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 41

           Appendix VII – Reporting Requirements . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 42

           Appendix VIII – OIG Offices and Key Officials  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 43




                                                                                                                                  October 1, 2011 – March 31, 2012 iii
                                                  OIG Profile



Organization                                                  conduct investigations and reviews of potentially
                                                              fraudulent, improper, wasteful, and/or abusive
The GSA OIG was established on October 1, 1978 as
                                                              activities within selected Agency operations and
one of the original 12 OIGs created by the Inspector
                                                              programs. The evaluation and analysis program
General Act of 1978. The OIG’s five components work
                                                              conducts operational assessments of the OIG’s
together to perform the missions mandated by Congress.
                                                              central and field offices and other operating
                                                              components, implements the OIG’s Federal
The OIG provides nationwide coverage of GSA programs
                                                              Managers’ Financial Integrity Act program, and
and activities. Our components include:
                                                              undertakes special projects and analyses as required
                                                              by the Inspector General.
•• The Office of Audits, an evaluative organization
   staffed with auditors and analysts who provide
                                                            •• The Office of Administration, a professional staff that
   comprehensive coverage of GSA operations through
                                                               provides information technology, budgetary,
   program, financial, regulatory, and system audits and
                                                               administrative, executive resources, and personnel
   assessment of management controls. The office
                                                               support services to all OIG offices.
   conducts attestation engagements in support of GSA
   contracting officials to carry out their procurement
   responsibilities and obtain the best value for federal   Office Locations
   customers and the American taxpayers. The office
                                                            The OIG is headquartered in Washington, DC at GSA’s
   also provides other services to assist management in
                                                            Central Office Building. Field and regional offices are
   evaluating and improving their programs.
                                                            maintained in Atlanta, GA; Auburn, WA; Boston, MA;
                                                            Chicago, IL; Denver, CO; Fort Lauderdale, FL; Fort
•• The Office of Investigations, an investigative
                                                            Worth, TX; Kansas City, MO; Laguna Niguel, CA; New
   organization that conducts a nationwide program to
                                                            York, NY; Philadelphia, PA; Sacramento, CA; San
   prevent, detect, and investigate illegal and/or
                                                            Francisco, CA; and the Washington, DC area. A contact
   improper activities involving GSA programs,
                                                            list of OIG offices and key officials is provided in
   operations, and personnel.
                                                            Appendix VIII.
•• The Office of Counsel, an in-house legal staff that
   provides legal advice and assistance to all OIG          Staffing and Budget
   components, represents the OIG in litigation arising
                                                            As of March 31, 2012, our on-board staffing level was
   out of or affecting OIG operations, and manages the
                                                            300 employees. The OIG’s Fiscal Year (FY) 2012 budget
   OIG legislative and regulatory review.
                                                            was $58 million with an additional $2.3 million in funds
                                                            appropriated under the American Recovery and
•• The Office of Forensic Auditing, Evaluation, and
                                                            Reinvestment Act of 2009 (Recovery Act).
   Analysis, a multidisciplinary staff that employs
   innovative auditing and investigative techniques to




iv  Semiannual Report to the Congress
                                OIG Organization Chart


                                       Inspector General
                                         Brian D. Miller
                                    Deputy Inspector General
                                       Robert C. Erickson

      Office of Counsel to the IG                                    Office of Forensic Auditing,
              Richard Levi                                            Evaluation, and Analysis
           Counsel to the IG                                          Patricia Sheehan, Director
    Office of Communications and
         Congressional Affairs                                       Management        Forensic
              Dave Farley                                            Evaluations       Auditing
                Director


Office of Administration                  Office of Audits                    Office of Investigations
     Larry Lee Gregg                    Theodore R. Stehney                    Geoffrey Cherrington
 AIG for Administration                   AIG for Auditing                     AIG for Investigations


   Budget and Financial                    Audit Planning, Policy,                 Investigations Operations
    Management Office                       and Operations Staff                            Division


                                            Administration and                        Internal Operations
      Facilities and
                                            Data Systems Staff                              Division
     Services Office


                                           Special Projects Office                     Regional Offices
    Contracting Office                                                                  Washington, DC
                                                                                          New York
                                          Finance and Information                          Atlanta
                                          Technology Audit Office                          Chicago
  Information Technology                                                                 Kansas City
         Division                                                                         Fort Worth
                                               Real Property                            San Francisco
                                                                                           Auburn
                                                Audit Office
    Human Resources                                                                        Boston
       Division                                                                          Philadelphia

                                            Acquisition Programs
      Executive                                 Audit Office
                                                                                           Sub-Offices
    Resources Staff/                                                                           Denver
  Human Capital Officer                                                                    Laguna Niguel
                                           Regional Audit Offices                          Ft. Lauderdale
                                                 New York                                   Sacramento
                                                Philadelphia
                                                  Atlanta
                                                  Chicago
                                                Kansas City
                                                 Fort Worth
                                               San Francisco




                                                                           October 1, 2011 – March 31, 2012 v
                                    Summary of OIG Performance



                                          October 1, 2011 – March 31, 2012




                                            OIG Accomplishments
        Total financial recommendations                                                 $316,250,188
        These include:
        •• Recommendations that funds be put to better use                              $301,500,542
        •• Questioned costs                                                              $14,749,646
        Audit reports issued                                                                     45
        Audit memorandums provided to GSA                                                        16
        Management decisions agreeing with audit recommendations,
        civil settlements, and court-ordered and investigative recoveries               $124,192,462


                                                 Results Attained
        Referrals for criminal prosecution, civil litigation, & administrative action           486
        Indictments and informations on criminal referrals                                       42
        Cases accepted for criminal prosecution                                                  35
        Cases accepted for civil action                                                           5
        Successful criminal prosecutions                                                         31
        Civil settlements                                                                         3
        Contractors/individuals suspended and debarred                                          142
        Employee actions taken on administrative referrals involving GSA employees                9
        Civil settlements and court-ordered and investigative recoveries                $218,496,507




vi  Semiannual Report to the Congress
                                             Executive Summary



Summary of Results                                             $5.1 billion. These audits resulted in recommendations
                                                               that $222 million in funds to be put to better use.
During this semiannual period, the OIG continued to
direct its auditing and investigative resources toward
                                                               Our audit of the Industrial Funding Fee (IFF) found that
what it has identified as the major management
                                                               the IFF is set at a level that consistently generates
challenges facing the Agency and achieved significant
                                                               excess net operating revenues, some of which have
results. Since October 1, 2011, the OIG has issued 45
                                                               been used to fund initiatives outside of the MAS
audit reports and referred 236 cases for criminal
                                                               Program, thereby diverging from the purpose of the IFF
prosecution, civil litigation, or administrative action. At
                                                               that has been communicated to MAS customers.
the close of this semiannual period, the OIG had made
                                                               Additionally, we found that the Federal Acquisition
over $316 million in recommendations that funds be put
                                                               Service (FAS) has not performed a specific review to
to better use and in questioned costs. In addition, our
                                                               determine whether the IFF rate should be adjusted since
efforts led to civil settlements and court-ordered and
                                                               fiscal year (FY) 2004 (page 1). Our audit of the cost-
investigative recoveries of over $218 million this period.
                                                               reimbursement contracts and task orders that GSA
                                                               entered into between March 17, 2011 and September
In its effort to promote economy and efficiency throughout
                                                               30, 2011 revealed that they were not in full compliance
Agency programs, the OIG focused specifically on
                                                               with applicable regulatory guidance (page 2). Our audit
audits of GSA’s acquisition, financial reporting, protection
                                                               of the Personal Property Donation Program in GSA’s
of federal facilities and personnel and American
                                                               Northeast and Caribbean Region found poor
Recovery and Reinvestment Act of 2009 (Recovery Act)
                                                               recordkeeping, inadequate oversight, and missing
initiatives; investigations of fraud, waste, and abuse by
                                                               property identifiers (page 3).
GSA employees and contractors; and litigation support
of civil fraud actions and criminal prosecutions. Below
                                                               Financial Reporting. GSA financial systems continue
are some of the highlights of the OIG’s actions during
                                                               to have deficient interoperability and interfaces.
this semiannual period.
                                                               Therefore, GSA management continues to rely heavily
                                                               on manual workarounds. Controls over budgetary
Management Challenges Highlights                               accounts and transactions also need improvement. The
The OIG continued to provide high quality audit                OIG directed an independent public accounting (IPA)
recommendations and advice so that GSA can lead the            firm to audit GSA’s FY 2011 financial statements. The
government in economical contracting and procurement.          IPA issued an unqualified opinion and identified five
The focus this semiannual period was on acquisition            significant deficiencies (page 4). In addition, our audit of
programs, financial reporting, protection of federal           GSA’s reported improper payments determined that
facilities and personnel, and Recovery Act projects.           while GSA generally complied with the Improper
Here are a few select audits and memoranda that                Payments Information Act requirements, it could improve
identify major challenges facing GSA.                          in five key areas (page 4).

Acquisition Programs. GSA provides federal agencies            Protection of Federal Facilities and Personnel.
with billions of dollars of products and services through      Providing a safe, healthy, and secure work environment
various types of contracts. During this reporting period,      for over one million employees and visitors in federal
the Office of Audits performed preaward audits of 26           buildings is one of GSA’s major responsibilities. As part
contracts with an estimated value of almost $7 billion.        of our earlier review of the health and safety conditions
Because of their pre-decisional, advisory nature, the          at the Bannister Federal Complex in Kansas City, MO,
OIG’s preaward audits play a crucial role in improving         we identified problems related to the award and
the government’s negotiating position and in realizing         administration of a public relations services task order,
millions of dollars in savings on negotiated contracts.        awarded to Jane Mobley Associates (JMA). Our audit of
Five of our more significant audits during this period         the task order disclosed that the statement of work was
were of Multiple Award Schedule (MAS) contracts with           not independently prepared and did not include
projected government-wide sales totaling more than             measurable deliverables (page 5).


                                                                                      October 1, 2011 – March 31, 2012 vii
                                             Executive Summary



American Recovery and Reinvestment Act Impact.                 Civil Recoveries. The GSA OIG has consolidated
The Recovery Act of 2009 provided GSA with a $5.55             investigative efforts related to civil recoveries. Chief
billion appropriation for its Federal Buildings Fund.          among the OIG’s civil recoveries this semiannual period
GSA’s Public Buildings Service (PBS) is using the funds        was a $199.5 million payment by Oracle Corporation to
to convert federal buildings into high performance green       settle qui tam allegations that it failed to disclose
buildings and to construct federal buildings, courthouses,     discounts offered to commercial customers when it sold
and land ports of entry. Due to the mandate that funds         software products to federal government agencies
must be obligated by September 30, 2011, GSA faced             (page 10). Additionally, a federal judge entered a default
challenges in planning and contracting in short time           judgment in the amount of over $6 million against C.
frames. The OIG conducts oversight of these projects.          Henderson Consulting, Inc., to settle allegations that the
During this semiannual period, our Office of Audits            company falsely billed the government for ambulances
issued Recovery Act reports or memorandums on the              it did not provide during the relief efforts following
Robert A. Young Federal Building (page 5); Small Project       Hurricanes Katrina and Rita (page 11). Cable Express
Funding for Move Costs (page 6); Improper Obligation           Technologies (CXtec) agreed to pay the United States
of Construction Funds for the 1800 F Street Modernization      $2 million to settle allegations that CXtec sold products
Project (page 7); a follow up to a prior memo concerning       to federal agencies that were manufactured in China,
environmental remediation liability of the Department of       Taiwan, Indonesia, Malaysia or Thailand in violation of
Health and Human Services (page 7); the 425 Eye                the Trade Agreements Act (page 11).
Street Swing Space Lease for the Department of
Veterans Affairs (page 8); and the Internal Revenue            Criminal Investigations. Darrell Hardie was found
Service Southwest Service Center (page 8).                     guilty of assaulting a GSA OIG federal agent after he
                                                               used his vehicle to threaten the agent engaged in
Promoting and Protecting                                       surveillance near Hardie’s residence (page 11). In
                                                               October 2011, Eric Minor, a former GSA employee was
Integrity Highlights                                           sentenced to 30 months of incarceration and two years
The OIG combated fraud, waste, and abuse through               of supervised release, and ordered to pay $118,000 in
civil and administrative recoveries and criminal               restitution for his role in a bribery scheme involving GSA
investigations during this semiannual period. When             contracts that resulted in the conviction of 11 individuals.
systemic issues are identified through investigations,         GSA OIG agents seized over $71,000 in cash from
they are shared with GSA management for appropriate            Minor’s home (page 11). Two others were indicted in a
corrective actions. During this period, criminal, civil, and   separate bribery/ kickback scheme to entice government
other monetary recoveries totaled over $218 million.           purchase card holders to order office supplies from the
                                                               defendants’ companies for greatly inflated prices (page
Government Infrastructure Protection Initiative (GIPI).        11). In December 2011, the former president of Red
The GSA’s Office of Investigations created GIPI to combat      River Computer Company was sentenced to three years
the proliferation of counterfeit information technology        in federal prison and ordered to forfeit $431,949 dollars
products in the federal supply chain by partnering with the    for defrauding the government (page 12). In February
Intellectual Property Rights Center operated by                2012, employees of Mid-America Payphone, Inc., pled
Immigration and Customs Enforcement. This semiannual           guilty for their roles in programming pay phones to dial
period saw the sentencing of Stephanie McCloskey to 38         toll free numbers. By exploiting the Federal
months of imprisonment, three years of supervised              Communications Commission regulation that allows
release, and the payment of $166,141.23 in restitution for     payphone service providers to collect $0.49 for every toll
selling counterfeit integrated circuits from China and Hong    free call placed, the individuals defrauded the
Kong to the U.S. Navy while she worked for VisionTech          government, state agencies, and private businesses
Components. A joint investigation led to a ten-count           that owned the toll free numbers of at least $1.2 million
indictment for conspiracy, trafficking in counterfeit goods,   (page 12). As a result of another such “dial-around
and mail fraud. Agents also seized items purchased with        compensation” scheme, Nicolaos Kantartzis, President
the proceeds of the scheme, including bank account funds       of Federal Telephone Company, was ordered to pay a
and luxury vehicles (page 10).                                 $20,000 fine and $2.6 million in restitution (page 12).

viii  Semiannual Report to the Congress
                                         Executive Summary



WPA Artwork. The GSA OIG continued its collaborative
campaign to recover and restore artwork commissioned
in the New Deal Era to the United States. During this
semiannual period, we recovered three artworks
(page 13).

Suspension and Debarment. During this reporting
period, the OIG made 319 referrals for consideration of
suspension or debarment to GSA, and GSA issued 142
suspension and debarment actions based on current
and previous OIG referrals (page 13).

Hotline. The OIG Hotline provides an avenue for
employees and other concerned citizens to report
suspected wrongdoing. The OIG received 1,131
contacts, from which 220 Hotline cases were initiated
(page 13).




                                                             October 1, 2011 – March 31, 2012 ix
(This page was intentionally left blank.)


x  Semiannual Report to the Congress
                                        Management Challenges



Since 1998, we have identified and shared with Congress and senior GSA management those areas and issues we
believe to be the major challenges facing the Agency. (This year’s list is summarized on the front inside cover of this
report.) During this reporting period, we continued our work addressing these challenges by recommending corrective
actions, and working with management to improve Agency operations. The following highlights some of our activities.

Acquisition Programs                                          including: failure to pass along price reductions, invoiced
                                                              pricing higher than the GSA schedule price, inclusion of
GSA provides federal agencies with billions of dollars of     sales tax, and invoicing for unqualified labor or
products and services through various types of contracts.     inappropriate labor categories. Two of the audits
As of March 31, 2012, there were over 19,800 Multiple         determined that the commercial sales practice
Award Schedule (MAS) contracts under GSA’s                    information provided in support of the extension proposal
procurement program with over $20.3 billion in total          was not current, accurate, or complete. One company
sales. We oversee this program by conducting preaward,        failed to disclose any sales other than those to the
postaward, and performance audits. Historically, for          existing basis of award customer. Examination of the
every dollar invested in our preaward audits, we achieve      non-disclosed sales showed better than offered pricing,
at least $10 in lower prices, or more favorable contract      which could result in cost savings of approximately 19
terms and conditions for the benefit of the government        percent of the estimated contract sales for the extension
and the taxpayer.                                             period. Two of the audits showed that customers with
                                                              less sales volume received higher discounts and better
Significant Preaward Audits                                   terms than GSA, and suggest that GSA should leverage
The pre-decisional, advisory nature of preaward audits        its buying power to obtain similar pricing.
distinguishes them from other audit products. This
program provides vital and current information enabling       Audit of the Multiple Award Schedule Program
contracting officers to significantly improve the             Industrial Funding Fee
government’s negotiating position and to realize millions     Report Number A090256/Q/A/P12003, dated
of dollars in savings on negotiated contracts. During this    February 3, 2012
period we performed preaward audits of 26 contracts
with an estimated value of almost $7 billion. We              Our audit of the Industrial Funding Fee (IFF) established
recommended more than $266 million in funds to be put         by GSA’s Federal Acquisition Service (FAS) found that
to better use. Management decisions were made on 25           the IFF is set at a level that consistently generates
of our preaward audit reports, which recommended over         excess net operating revenue. These net operating
$123 million of funds to be put to better use, and            revenues flow into the Acquisition Services Fund’s
management agreed with 99.8 percent of our                    (ASF) three reserve accounts. As of September 2009,
recommended savings.                                          these reserves had grown to $687.5 million. While these
                                                              revenues are to be used to cover the costs of FAS’s
Five of our more significant audits were of MAS contracts     MAS Program, make MAS Program investments, and
with projected government-wide sales totaling more            maintain a risk mitigating buffer, some revenues have
than $5.1 billion.          These audits resulted in          been used to fund initiatives benefitting other FAS
recommendations of $222 million in funds to be put to         programs. Although managing cost recovery at other
better use. All five of the audits showed that the Price      than the MAS Program level is not prohibited, it diverges
Reductions clause was ineffective because there were          from the purpose of the IFF that has been communicated
either no or limited sales to the basis of award customer,    to MAS customers.
the listing of proposed exclusions as provided by the
vendor was so encompassing as to prevent a price
reduction from being triggered, or all sales were to either
GSA or other federal agencies. In four of our audits, we
determined there were overbillings for various reasons,


                                                                                     October 1, 2011 – March 31, 2012 1
                                       Management Challenges



Acquisition Programs (continued)

Each year, FAS assesses the adequacy of these               Audit of GSA’s Cost-Reimbursement Contracts
reserves as part of its budget process. However, FAS        Report Number A120052/Q/A/P12004, dated March 30, 2012
has not performed a specific review to determine
whether the IFF rate should be adjusted since fiscal year   This audit found that the cost-reimbursement contracts
2004. A critical assessment of steadily rising MAS          and task orders GSA entered into between March 17,
Program costs should be a part of this evaluation.          2011, and September 30, 2011, do not fully comply with
Despite the fact that controls over MAS Program sales       interim rule 76 Federal Register (FR) 14543. This interim
reporting and IFF collection have improved since our        rule, which was implemented as a result of Section 864 of
previous IFF audit, we found that further enhancements      the Duncan Hunter National Defense Authorization Act of
are possible.                                               Fiscal Year 2009, provides regulatory guidance regarding
                                                            proper use and management of cost-reimbursement
We recommended that the Commissioner of the Federal         contracts. Specifically, GSA acquisition personnel did not
Acquisition Service:                                        consistently assure that: (1) acquisition plans were properly
                                                            developed, (2) the designation of the contracting officer’s
•• Evaluate the current IFF rate, considering needed        representative (COR) was timely or distributed
   investments and reserves, and adjust it if necessary;    appropriately, and (3) contractors’ accounting systems
•• Develop and establish criteria and methodology for       were adequate for tracking costs during the entire period
   evaluating, on a periodic basis, whether the IFF rate    of performance. As a result, the risks inherent with this
   is properly set;                                         type of contract, such as unnecessary costs and/or
                                                            reduced quality of the goods and services provided, are
•• Evaluate the current ASF reserves, determine             more likely to occur and/or be mismanaged.
   whether funds should be returned to the U.S.
   Treasury, and make any returns deemed appropriate;       The acquisition plans for nine of the ten task orders we
•• Inform MAS customers that the IFF may be used to         reviewed did not address at least one provision of the
   fund initiatives benefitting other programs or offset    Federal Acquisition Regulation (FAR) which stipulates
   losses in other FAS programs. At a minimum, this         the requirements for planning and documenting the
   can be done by revising General Services Acquisition     planning of cost-reimbursement contracts. In addition,
   Regulation 552.238-74; and                               acquisition personnel did not always designate a COR
                                                            prior to award and did not provide a copy of the COR’s
•• Issue Standard Operating Procedures that require         written designation letter to the contractor in accordance
   the FAS Office of Acquisition Management, Supplier       with the FAR. Furthermore, in two of the task orders
   Management Division, to obtain status updates and        reviewed, we found indications that the contractors may
   proof of payment on open receivables from MAS            not have had accounting systems that adequately
   Administrative Contracting Officers for forwarding to    tracked their costs during the entire period of
   the Office of Administrative Services’ GAO/IG Audit      performance as required by the FAR.
   Response Division.
The FAS Commissioner concurred with the first four          We recommended that the Commissioner of the Federal
recommendations, but took exception to the fifth            Acquisition Service:
recommendation. We revised the fifth recommendation
based on discussions with FAS officials.                    •• Reaffirm internal guidance and develop additional
                                                               internal policies to ensure that acquisition personnel
                                                               understand how interim rule 76 FR 14543 and related
                                                               FAR changes affect existing and future contracts and
                                                               task orders; and




2  Semiannual Report to the Congress
                                        Management Challenges



Acquisition Programs (continued)

•• Incorporate the requirements as a result of interim        We recommended that the FAS Regional Commissioner
   rule 76 FR 14543 into existing acquisition plan            for the Northeast and Caribbean Region ensure that the
   templates.                                                 Region’s Personal Property Division:
The FAS Commissioner concurred with the report
                                                              •• Enforce proper recordkeeping standards on the NJ
recommendations.
                                                                 SASP. Specifically, donee files should be complete,
                                                                 and property receipts must comply with applicable
Audit of Personal Property Donation Program:
                                                                 standards. Also, encourage donees to retain the
New Jersey State Agency for Surplus Property,
                                                                 identifying information that comes affixed to each
Federal Acquisition Service, Northeast and
                                                                 donated item;
Caribbean Region
Report Number A110117/Q/2/P12005, dated March 30, 2012        •• Reconcile the quarterly donation activity received
                                                                 from SASPs to another data source, and require
Our audit found that poor recordkeeping, inadequate              supervisory review of the data entered into the GSA
oversight, and missing identifiers in GSA’s Northeast            system;
and Caribbean Region’s Personal Property Donation             •• Review the NJ SASP in a more timely fashion,
Program precluded the positive identification of most of         carefully document these reviews and disseminate
the donated property we searched for. Also, ineffective          the results to the NJ SASP, and follow up on
and incomplete data submissions and entries resulted in          outstanding issues. Given the issues identified
the inaccurate reporting of donation activity. Further,          relative to the NJ SASP, we recommend that it be
reviews of state programs were not performed or                  reviewed on a two-year cycle; and
documented effectively. Finally, the New Jersey State
Agency for Surplus Property (NJ SASP) does not                •• Require the NJ SASP to maintain a current list of
maintain a current list of eligible donees.                      eligible donees and properly promote the donation
                                                                 program.
Personal property that is no longer required by the           The FAS Regional Commissioner for the Northeast and
federal government is made available to SASPs for             Caribbean Region concurred with the report
donation to state and local governments and eligible          recommendations.
nonprofit institutions. From 2008 to 2010, GSA reported
that the NJ SASP transferred approximately $17.5 million
in property to eligible donees.
                                                              Financial Reporting
                                                              GSA Systems, including its financial system of record
We could positively identify only 28 percent ($787,227 of
                                                              (Pegasys), continue to have deficiencies in interoperability
$2,831,029) of the donated items we looked for during
                                                              and interfaces. As a consequence, GSA management
our audit, because the NJ SASP did not maintain its
                                                              continues to rely heavily on manual workarounds and
records in accordance with prescribed policies and
                                                              significant adjusting entries to prepare the financial
procedures. Our audit revealed a high rate of missing
                                                              statements and related note disclosures. Controls over
documentation. In addition, New Jersey donation
                                                              budgetary accounts and transactions, financial reporting,
activity has been inaccurately reported over the last
                                                              and over certain note disclosures need improvement.
three years. For example, the NJ SASP erroneously
included an $11.3 million F-15A aircraft in its fiscal year
2008 report.




                                                                                      October 1, 2011 – March 31, 2012 3
                                        Management Challenges



Financial Reporting (continued)

Audit of the General Services Administration’s Fiscal        generally complied with the requirements of IPIA as
Year 2011 Financial Statements                               amended by IPERA. However, we noted that (1) GSA’s
Report Number A110103/B/F/F12001,                            process for reporting the results of its payment recapture
dated December 22, 2011                                      audit program needs improvement; (2) GSA’s
                                                             construction program was improperly excluded from the
In accordance with the Chief Financial Officer’s Act of      payment recapture audit program; (3) GSA may be using
1990, the OIG directed the audit of GSA’s Fiscal Year        an improper source of funds to reimburse the payment
(FY) 2011 Financial Statements. As in the past, the          recapture audit contractor; (4) the improper payments
audit was performed by an independent public                 program management controls are insufficient; and (5)
accounting firm (IPA), with oversight and guidance           the recovery audit contract does not contain all
provided by the OIG. The IPA issued an unqualified           appropriate IPERA and GSA directive references.
opinion on the balance sheets and the related
consolidated and individual statements of net cost,          We recommended that GSA’s Chief Financial Officer:
changes in net position, and the combined and individual
statements of budgetary resources of the Agency, the         •• Report the identified, recovered, and outstanding
Federal Buildings Fund, and the Acquisition Services            amounts related to improper payments in the payment
Fund, for the fiscal year ended September 30, 2011.             recapture audit program in a manner consistent with
                                                                financial reporting requirements;
Although the IPA did not identify any material weaknesses    •• Improve tracking and aging of all outstanding improper
relating to GSA’s financial management systems,                 payment claims;
internal controls, or financial reporting, they did report
five significant deficiencies relating to:                   •• Include all GSA programs and activities in the
                                                                payment recapture audit program;
•• Controls over budgetary accounts and transactions;        •• Seek clarification from the Office of Management and
•• Controls over accounting and reporting of general            Budget (OMB) to ensure the proper source of funds
   property and equipment;                                      is used to reimburse the payment recapture audit
                                                                contractor;
•• Controls over accounting and reporting of
   environmental liabilities;                                •• Issue official policy providing guidance to Agency
                                                                personnel regarding the reporting of improper
•• Controls over revenue and expense recognition                payments and the implementation of the IPERA; and
   policies in the Acquisition Services Fund; and
                                                             •• Review and modify, as necessary, the payment
•• General and application controls over financial              recapture audit contract to ensure it contains all
   management systems.                                          clauses required by applicable laws, regulations and
The IPA issued a number of recommendations to correct           GSA orders.
the reported significant deficiencies.                       GSA’s Chief Financial Officer concurred with our findings
                                                             and recommendations with the exception of the finding
Audit of GSA’s Improper Payments Performance                 concerning management’s potential use of an improper
Report Number A120002/B/F/F12002, dated March 9, 2012        source of funding. The GSA Chief Financial Officer
                                                             believes the Agency used a proper source of funding to
As required by the Improper Payments Information Act         reimburse the payment recapture audit contractor and
of 2002 (IPIA) and as amended by the Improper                plans to contact OMB to seek additional clarification on
Payments Elimination and Recovery Act of 2010                the matter.
(IPERA), we conducted an audit of improper payments
GSA reported for FY 2011. We determined that GSA


4  Semiannual Report to the Congress
                                        Management Challenges



Protection of Federal Facilities                              City, MO. We conveyed our initial concerns to PBS
                                                              management in the Heartland Region in an audit
and Personnel                                                 memorandum dated February 18, 2011.
GSA has a major multifaceted responsibility to provide a
safe, healthy and secure work environment for over one        American Recovery and
million employees and public visitors in federal buildings.   Reinvestment Act Impact
The increased risks from terrorism have greatly expanded
the range of vulnerabilities. A broadly integrated security   The American Recovery and Reinvestment Act of 2009
program is required.                                          (Recovery Act) provided GSA with a $5.55 billion
                                                              appropriation for its Federal Buildings Fund. In
Review of Public Buildings Service’s Procurement of           accordance with the Act, GSA’s PBS is using the funds
Public Relations Services at the Bannister Federal            to convert federal buildings into High-Performance
Complex Task Order GS-P-06-10-GX-0012                         Green Buildings, and to construct federal buildings,
Report Number A110119/P/6/R12001,                             courthouses, and land ports of entry. The Recovery Act
dated January 10, 2012                                        mandates that $5 billion of the funds were to be obligated
                                                              by September 30, 2010, and that the remaining funds
Our audit disclosed that Public Buildings Service (PBS)       were to be obligated by September 30, 2011. Under this
received limited value for the $234,338 it expended           mandate, GSA’s project teams were faced with the
under a task order for public relations services with Jane    challenge of planning and contracting for projects within
Mobley Associates, Inc. (JMA). The primary reasons            extremely short timeframes. Although GSA added new
this occurred were that the task order’s statement of         employees and contract support staff to comply with the
work was not independently prepared (it was actually          requirements of the Recovery Act, meeting the deadlines
written by JMA) and did not include measurable                for the obligation of the Recovery Act funds has strained
deliverables. In addition, PBS management directed            the capabilities of the project teams -- even before the
that JMA be the sole source for this award and required       actual start of construction for these projects. The GSA
that the award be made in an extremely tight time frame.      OIG is conducting oversight of the construction and
Finally, we determined that JMA overbilled the                modernization projects funded by the Recovery Act
government by more than $32,000.                              through internal audits and attestation engagements,
                                                              leading to the release of numerous internal audit reports
We recommended that the PBS Regional Commissioner             and audit memorandums.
for the Heartland Region:
                                                              Recovery Act Report – Robert A. Young Federal
•• Implement controls to ensure that contracting actions      Building Envelope Improvement Construction
   contain measurable deliverables in accordance with         Project, Audit of PBS’s Major Construction and
   the Federal Acquisition Regulation and that only PBS       Modernization Projects Funded by the American
   associates be allowed to prepare statements of work        Recovery and Reinvestment Act of 2009
   for contracting actions; and                               Report Number A090172/P/R/R11012, dated March 8, 2012
•• Issue a demand letter to JMA for the amounts it
   overbilled the government.                                 Our audit disclosed several deficiencies related to the
                                                              award of a task order for Construction Manager as
The PBS Regional Commissioner for the Heartland               Constructor (CMC) services related to the modernization
Region concurred with the report recommendations.             of the Robert A. Young Federal Building, located in St.
                                                              Louis, Missouri. First, PBS effectively eliminated price
This audit was performed as a result of problems related      competition as an award factor for the construction
to the award and administration of the JMA task order         phase of the project by instructing bidders to use the $7
identified during our review of health and safety             million Guaranteed Maximum Price (GMP) in their
conditions at the Bannister Federal Complex in Kansas         respective proposals. Ultimately the construction award


                                                                                     October 1, 2011 – March 31, 2012 5
                                          Management Challenges



American Recovery and Reinvestment Act Impact (continued)

increased to $26.3 million (nearly quadrupling the original      Recovery Act Report-Audit of Small Project
GMP). By executing the procurement in this manner,               American Recovery and Reinvestment Act of 2009
PBS violated the requirements of both the FAR and the            Funding Used for Move Costs
Competition in Contracting Act of 1984, because the              Report Number A110215/P/R/R12002,
option was not evaluated as part of the initial competition      dated February 17, 2012
and could not be executed at an amount specified in or
reasonably determinable from the terms of the base               Our audit disclosed that GSA was not transparent in its
contract. In effect, the construction option was awarded         use of Small project funds for move costs related to
as a sole source procurement and an unpriced option.             Building Modernization and Limited Scope projects.
                                                                 Neither the Spend Plan submitted to Congress nor any
Second, without competition PBS did not have an                  of GSA’s Recovery Act reporting identifies how Small
adequate basis for establishing price reasonableness.            project funds are being used.
While PBS did compare the bids to a government
estimate, the estimate was not complete because PBS              In implementing the Recovery Act, GSA apportioned the
had not fully defined the contract scope prior to award.         $4.5 billion designated for High Performance Green
                                                                 Building projects into three categories: Building
Third, PBS improperly obligated the funding for the              Modernization projects, Limited Scope projects, and
construction phase option. The task order established            Small projects. As of September 9, 2011, GSA obligated
only the GMP; it did not actually exercise the option and        $58.6 million of Small project funding for move costs
therefore did not create a liability for these services. As      related to 26 Building Modernization and Limited Scope
such, an obligation did not occur and should not have            projects. This amount represented nearly 30 percent of
been recorded.                                                   the total $199.3 million available for Small projects.

Lastly, to accommodate award of this task order, PBS             We recommended that the Commissioner of the Public
inappropriately increased the maximum order limitation           Buildings Service provide supplemental reporting that
(MOL) of the contract under which it was awarded.                lists the amount of funds obligated by project under the
While the contract’s original MOL could have covered             Small project category. The list should identify move
the initial $7 million award, it was insufficient to cover the   costs as well as other uses of funds; be updated
increases that resulted from the redefined project scope.        periodically for changes; and be posted publically on
PBS modified the contract twice, increasing the MOL              www.gsa.gov and submitted to www.recovery.gov. The
from $40 million to $72 million.                                 PBS Commissioner concurred with the recommendation.

We recommended that the Commissioner of the Public
Buildings Service:

•• Review the underlying contract to determine whether
   it should be modified or terminated;
•• Take measures to ensure that PBS contracting
   personnel follow existing procurement regulations
   and guidance in establishing reasonable pricing; and
•• Ensure that project teams have proper guidance and
   training regarding the obligation of funding.
The PBS Commissioner concurred with the report
recommendations.



6  Semiannual Report to the Congress
                                          Management Challenges



American Recovery and Reinvestment Act Impact (continued)

Recovery Act Report – Improper Obligation of                    not just PBS. Also, the security costs should be
Construction Funds for the 1800 F Street                        considered capital expenditures not tenant
Modernization Project, Audit of PBS’s Major                     improvements. As such, the Buildings Operations
Construction and Modernization Projects Funded                  account was not the proper source of funding for this
by the American Recovery and Reinvestment                       work.
Act of 2009
Report Number A090172/P/R/R12006, dated March 30, 2012          We informed PBS officials of these issues on January
                                                                19, 2012. On February 7, 2012, PBS deobligated the
Our audit disclosed that PBS improperly obligated               $8.3 million via contract modification and agreed to
funding for a contract modification related to the              perform a review of all contract modifications to ensure
modernization of the GSA building at 1800 F Street NW           that funds have been obligated properly. Accordingly,
Washington, DC. In addition, the modification was not           we made no formal recommendations.
fully priced prior to execution as required by the FAR.
Finally, an inappropriate source of funds was used on           Special Project Memorandum: Follow-up to a Prior
this project.                                                   Memo Concerning Environmental Remediation
                                                                Liability of the Department of Health and Human
Phase 1 of the 1800 F Street modernization is a major           Services
project funded by the American Recovery and                     Memorandum Number A090168-07,
Reinvestment Act of 2009.            PBS awarded the            dated February 14, 2012
construction contract for Phase 1 at $124,349,000 and
issued several modifications to this contract. One of           As part of our on-going oversight of the consolidation of
these modifications, valued at nearly $8.3 million, was         the Department of Homeland Security headquarters at
awarded without specific scope or pricing information.          the Saint Elizabeths Campus, we issued a memorandum
However, according to the Recording Statute, an                 to the PBS Deputy Regional Commissioner for the
obligation cannot be incurred until the agency and the          National Capital Region, on June 18, 2010, in which we
vendor have documentary evidence of a binding                   raised concerns about a potential environmental
agreement for the specific goods or services to be              remediation liability arising from the transfer of the Saint
provided. Additionally, the FAR requires that all contract      Elizabeths West Campus from the Department of Health
modifications, including change orders, must be priced          and Human Services (HHS) to GSA. At the time, we
before they are executed unless doing so would                  identified a $28.9 million charge for soil remediation
adversely affect the interests of the government.               related to excavation for the United States Coast Guard
                                                                Headquarters facility under construction at that site. We
PBS funded the modification from the Building                   observed that GSA appears to have a legitimate basis to
Operations budget account of the Federal Buildings              recover these costs from HHS.
Fund. According to PBS Policy, these funds can only be
used for limited activities, such as planning and feasibility   As an update on the matter, HHS has acknowledged
studies and in-house management costs of construction           liability for these costs – now in excess of $50 million –
projects, prior to receiving line item funding. Normally,       and has demonstrated that it will reimburse GSA as its
Building Operations funds would not be used to directly         budget permits. If the terms of the Memorandum of
fund a construction contract. PBS indicated that the            Understanding (MOU) between HHS and GSA equate
purpose of this modification was to provide above-              to HHS’s legally binding liability, then GSA should take
standard tenant improvements that, according to GSA             whatever action is necessary to enforce its collection
Pricing Policy, are to be funded by tenant agencies.            rights. Future site development remediation costs
Some security costs were also included as part of the           should appear on the balance sheet as an environmental
modification. In this instance, the improvements appear         liability (an HHS liability if the MOU is binding; a GSA
to be for the entire GSA organization (the tenant agency)       liability if it is not). Regardless, a separate source of


                                                                                        October 1, 2011 – March 31, 2012 7
                                         Management Challenges



American Recovery and Reinvestment Act Impact (continued)

funding to cover the cost of future site remediation must      In addition, PBS did not monitor compliance with the
be identified to shift the burden of the soil remediation      Davis-Bacon Act during the tenant build out.
costs from the project budget.                                 Consequently, PBS had no assurance that laborers and
                                                               tradesmen were paid prevailing wages rates. When
Recovery Act Memorandum – 425 Eye Street Swing                 PBS eventually reviewed contractor payrolls,
Space Lease for the Department of Veterans Affairs;            discrepancies were discovered.         Two of the
Review of Lease Projects Funded by the American                subcontractors on the lessor’s competitive pricing
Recovery and Reinvestment Act of 2009                          proposal were not the subcontractors who actually
Memorandum Number A100203-3, dated February 29, 2012           performed the work. PBS also found a difference of
                                                               $749,052 between the subcontract amount awarded
Our review of the $39 million ($16.6 million of which was      and the actual subcontract value.
funded through the Recovery Act) in tenant improvements
at 425 Eye Street in Washington, DC disclosed that PBS         The PBS Regional Commissioner agreed with the
cannot support its decision to pay the lessor more than        findings and listed the corrective actions that have been,
$1 million for advanced funding of these improvements.         or will be, taken to address them.
PBS could not explain how the amount was determined
or why the particular source of funds was used.                Award and Administration of Contract for
Additionally, PBS did not verify that the contractor           Construction Services in Support of the American
complied with the Davis-Bacon Act during the course of         Recovery and Reinvestment Act of 2009 at the
the improvement work.                                          Internal Revenue Service Southwest Service Center,
                                                               Austin, Texas
The facility at 425 Eye Street was updated to be used as       Memorandum Number A090184-27, dated February 29, 2012
“swing space” during renovations at the Lafayette
Building in Washington, DC. Prior to lease award, the          Our review identified deficiencies related to the
lessor was required to show that it could finance the          administration of the $2.4 million task order for the
tenant improvements. However, after lease award, the           replacement of chillers and associated mechanical
lessor claimed that it did not have sufficient funding to      equipment at the Internal Revenue Service Southwest
cover these costs, which it projected to be significantly      Service Center in Austin, Texas.
higher than the amount cited in the solicitation for offers.
According to PBS, the lessor threatened to delay the           First, PBS used an improper form of contracting (a
work unless it was reimbursed by the government. PBS           multiple award schedule contract) as the procurement
maintained that any delays would impact the cost of the        vehicle for this project. Since the work involved was
Lafayette renovation project. Accordingly, PBS opted to        entirely open market in nature, the contractor’s schedule
reimburse the lessor $1,153,570.80 (an amount                  price list was irrelevant, thus overall price reasonableness
equivalent to the Broker’s Commission Credit that was          could not be established. Second, foreign-manufactured
to be used for rent abatement). Despite numerous               construction materials were installed in violation of the
requests, PBS was unable to provide us with                    Buy American provision of the Recovery Act.
documentation supporting its decision to reimburse the
lessor, how the amount was determined, or why rent             The PBS Regional Commissioner for the Greater
abatement funds were used.                                     Southwest Region agreed with our findings and
                                                               responded that actions were initiated to address the
                                                               identified issues.




8  Semiannual Report to the Congress
                                       Management Challenges



Other Initiatives
The FAR requires government contractors to disclose          Disclosures for this Reporting Period
credible evidence of violations of federal criminal law      As disclosures are made, the OIG’s Office of Audits,
under Title 18 of the United States Code (18 U.S.C.) and     Office of Investigations, and Office of Counsel jointly
the False Claims Act to agencies’ Offices of Inspector       examine each acknowledgment and make a
General. To facilitate implementation of this requirement,   determination as to what actions, if any, are warranted.
we developed internal procedures to process, evaluate,       During this reporting period, the OIG received eight
and act on these disclosures and created a website for       disclosures. These disclosures were connected to
contractor self reporting.                                   allegations of employee fraud and inappropriate
                                                             behavior, as well as failures to comply with contract
FAR Rule for Contractor Disclosure                           requirements related to billings, price reduction
Effective December 12, 2008, the Civilian Agency             monitoring, and the Trade Agreements Act. Also during
Acquisition Council and the Defense Acquisition              this reporting period, the OIG performed work on an
Regulations Council agreed on a final rule amending the      additional 19 existing disclosures, and concluded its
FAR. The final rule implements the Close the Contractor      evaluation of nine disclosures that resulted in $1,685,112
Fraud Loophole Act, Public Law 110–252, Title VI, and        of savings and recoveries to the government. The OIG
Chapter 1. Under the rule, a contractor must disclose,       also assisted on seven disclosures that were referred by
to the relevant agency’s OIG, credible evidence of a         another agency because of their potential impact on
violation of federal criminal law (e.g. 18 U.S.C. and the    GSA’s operations.
False Claims Act) including fraud, conflicts of interest,
bribery, or the offering or acceptance of gratuities
connected to the award, performance, or closeout of a
government contract performed by the contractor or a
subcontractor. The rule provides for suspension or
debarment when a principal knowingly fails to disclose,
in writing, such violations in a timely manner.




                                                                                    October 1, 2011 – March 31, 2012 9
                                 Promoting and Protecting Integrity



GSA is responsible for providing working space for one million federal employees. The Agency also manages the
transfer and disposal of excess and surplus real and personal property and operates a government-wide service and
supply system. To meet the needs of customer agencies, GSA contracts for billions of dollars worth of equipment,
supplies, materials, and services each year. We conduct reviews and investigations in all these areas to ensure the
integrity of the Agency’s financial statements, programs, and operations, and that the taxpayers’ interests are protected.
In addition to detecting problems in these GSA programs and operations, the OIG is responsible for initiative actions
and inspections to prevent fraud, waste, and abuse and to promote economy and efficiency. When systemic issues are
identified during investigations, they are shared with GSA management for appropriate corrective actions. During this
period, criminal, civil, and other monetary recoveries totaled over $218 million (see Tables 5 and 6).

Significant Initiatives, Civil Actions,                         Investigations unit, the NCIS, the DCIS, the Department
                                                                of Transportation OIG, the U.S. Postal Inspection
and Criminal Investigations                                     Service, and the GSA OIG revealed that McCloskey
                                                                sold counterfeit integrated circuits while she worked for
Government Infrastructure Protection Initiative (GIPI)
                                                                VisionTech Components. This led to a ten-count
In April 2010, the GSA OIG’s Office of Investigations           indictment of Shannon Wren and Stephanie McCloskey
initiated the Government Infrastructure Protection Initiative   for federal conspiracy, trafficking in counterfeit goods,
(GIPI) to combat the proliferation of counterfeit software,     and mail fraud stemming from their role in a scheme to
information technology products, and other business             import and sell counterfeit integrated circuits from China
products in the federal supply chain, which could pose a        and Hong Kong to the U.S. Navy, defense contractors
significant vulnerability to the government’s infrastructure.   and others. Some of the counterfeit products were
GSA OIG partnered with the Intellectual Property Rights         marketed as “military-grade.” Federal agents also
(IPR) Center operated by Immigration and Customs                seized items the conspirators purchased with the
Enforcement (ICE), Homeland Security Investigations             proceeds of the scheme, including a Showhauler Motor
(HSI). This partnership facilitates the identification of       home, a Ferrari Spider, a Bentley Arnage, a Mercedes
unscrupulous suppliers to protect government buyers.            Benz, motorcycles, and funds in several bank accounts.
As part of this effort, the GSA OIG’s Director of
Investigative Operations is chairing a working group at         Civil and Administrative Recoveries
the IPR Center, comprised of representatives from the
                                                                The Office of Investigations consolidated investigative
Federal Bureau of Investigation (FBI), the Defense
                                                                efforts related to civil recoveries involving qui tam filings,
Criminal Investigative Service (DCIS), the Naval Criminal
                                                                FAR disclosures, and Trade Agreement Act (TAA)
Investigative Service (NCIS), the Air Force Office of
                                                                violations in its Washington, DC field office. In
Special Investigations, and the Army Criminal
                                                                recognition of the need to expand civil recovery efforts
Investigations Division, to address issues related to the
                                                                throughout its field offices, the GSA OIG formalized this
proliferation of counterfeit goods in the government
                                                                initiative as a separate unit to make use of the expertise
supply chain.
                                                                the organization has gained through previous successful
Integrated Circuit Counterfeiters Convicted and                 investigations. The unit serves as a one-stop shop for
Sentenced                                                       expert information and advice that is necessary to
                                                                conduct civil investigations, and which contributed to the
On October 25, 2011, a federal judge sentenced                  successes outlined below.
Stephanie McCloskey to 38 months of imprisonment
and three years of supervised release, and ordered her          Oracle Agrees to Pay Government $199.5 Million
to pay a $100 special assessment fee. McCloskey was             to Settle Qui Tam
also ordered to pay $166,141.23 pending the judge’s
                                                                On October 6, 2011, Oracle Corporation entered into a
determination of the full restitution amount to be paid to
                                                                settlement agreement to pay the United States $199,500
the U.S. government. A joint investigation by Immigration
                                                                million, plus interest. The suit originated with a qui tam
and Customs Enforcement’s Homeland Security


10  Semiannual Report to the Congress
                              Promoting and Protecting Integrity



Significant Initiatives, Civil Actions, and Criminal Investigations (continued)

complaint alleging that Oracle defrauded the United       Criminal Investigations
States by intentionally failing to disclose discounts
offered to commercial customers when it sold software     Conviction Follows Assault on GSA OIG
products to federal government agencies. This resulted    Special Agent
in excess charges to the federal government throughout    On March 7, 2012, Darrell Hardie was found guilty of
the life of the contract.                                 assaulting a federal agent after a two-day trial. GSA
                                                          OIG agents had arrested Hardie on September 29, 2011,
Federal Judge Enters $6.1 Million Default
                                                          after he used his vehicle to threaten a GSA special agent
Judgment Against Company
                                                          who was engaged in surveillance near Hardie’s
On October 11, 2011, a federal judge entered a default    residence.
judgment in the amount of $6,178,800 against C.
Henderson Consulting, Inc. The order settled a civil      GSA Employee Sentenced in Bribery Case
complaint by the United States, alleging that company     On October 24, 2011, Eric Minor, a GSA Customer
representatives falsely billed the Federal Emergency      Service Manager, was sentenced to 30 months of
Management Agency in the amount of $1,971,600 for         incarceration and two years of supervised release, and
ambulances the company claimed it provided through        ordered to pay $118,000 in restitution to GSA and a $100
its GSA contract during the relief efforts following      special assessment fee. The sentence follows Minor’s
hurricanes Katrina and Rita. The investigation            guilty plea to bribery charges. Previous investigation
conducted by GSA OIG and Department of Homeland           revealed that Minor accepted numerous cash bribes
Security OIG revealed that C. Henderson Consulting        over a period of several years in return for maintenance
billed the government for 60 to 70 ambulances a day       contracts at GSA facilities. In December 2010, GSA
even though it only had 50 ambulances available.          OIG agents executed a federal search warrant at Minor’s
                                                          residence and seized over $71,000 in cash that was
Cable Express Technologies (CXtec) Agrees
                                                          found in a container in his bedroom. This investigation
to $2 Million Settlement
                                                          was conducted jointly with the FBI and was the
On March 29, 2012 CXtec entered into a settlement         culmination of a multi-year investigation into corruption
agreement to pay the United States $2,000,000. The        by government employees and civilian contractors who
suit originated with a qui tam complaint alleging that    were involved in the award and administration of GSA
CXtec sold products to Federal agencies that were         contracts in the Washington, DC, metro area. The
manufactured in China, Taiwan, Indonesia, Malaysia or     investigation has resulted in the conviction of 11
Thailand even though such sales were prohibited by the    individuals (including Minor), all of whom pled guilty to
Trade Agreements Act. This resulted in CXtec              federal criminal offenses, including bribery and
overcharging the federal government. The settlement       conspiracy.
also resolved allegations in the qui tam that CXtec had
sold counterfeit brand-name electronics to the Federal    Two Indicted in Bribery/Kickback Scheme
government.                                               On December 21, 2011, the owner and a former
                                                          employee of a group of office supply companies were
Staples Agrees to Resolve Claims
                                                          charged with wire fraud, mail fraud, bribery, and money
On January 9, 2012, Staples, Inc., agreed to pay the      laundering. These charges stemmed from a joint
U.S.    government $1,493,386 for overcharging            investigation of the NCIS, the FBI, the DCIS, the Air
government customers under a GSA Federal Supply           Force Office of Special Investigations, the Army Criminal
Schedule contract.                                        Investigation Division’s Major Procurement Fraud Unit,
                                                          Internal Revenue Service Criminal Investigation, and
                                                          the GSA OIG. The investigation revealed that the pair
                                                          schemed to defraud the federal government by paying


                                                                               October 1, 2011 – March 31, 2012 11
                                Promoting and Protecting Integrity



Significant Initiatives, Civil Actions, and Criminal Investigations (continued)

government purchase credit card holders bribes and            were paid by the owners of the toll-free numbers,
kickbacks as an enticement to order office supplies from      including GSA.
the office supply companies at greatly inflated prices.
The government purchase credit cards involved were            Payphone Fraud Scam Results in Prison Sentence
issued under the GSA SmartPay2 Program.                       and $2.6 million Restitution Order
                                                              On January 4, 2012, Nicolaos Kantartzis, President of
Former Company President Sentenced to                         Federal Telephone Company, Inc., was sentenced to
Three Years’ Incarceration                                    three months of incarceration, three months of home
On December 19, 2011, Breck Taylor, former President          confinement, and three years of supervised release,
of Red River Computer Company, Inc., was sentenced            and also ordered to pay a $20,000 fine and $2.6 million
in U.S. District Court to three years in federal prison and   in restitution. Kantartzis had pled guilty to federal wire
one year of supervised release after pleading guilty to       fraud violations, and had already forfeited $2.8 million in
wire fraud, attempted wire fraud, and conversion of           proceeds from his fraud scheme. The GSA OIG began
government funds. Taylor was also directed to forfeit         its investigation after a GSA employee noticed unusual
$431,949.14 and ordered to pay a special assessment           calling patterns from payphones into toll-free numbers
of $400. As previously reported, Taylor was charged           operated by GSA. A joint investigation with the FBI
with these violations and pled guilty to them on              disclosed that Kantartzis programmed approximately
September 8, 2011, after a joint investigation conducted      160 payphones owned by his company to automatically
with the FBI and DCIS revealed Taylor and his company,        dial toll-free numbers, so he could collect $.49 per call.
Red River, committed fraud in their dealings with the         Victims of this "dial-around compensation" fraud scheme
government through the GSA Federal Supply Schedule            included GSA, several other federal agencies, and
program, as well as through competitively-bid, sole-          private businesses.
sourced, and open-market transactions. Taylor served
as a shareholder, director, employee, and President of        Vehicle Title Launderer Sentenced to
Red River.                                                    Two Years’ Imprisonment
                                                              On January 10, 2012, Jerry Weaver was sentenced to
Investigation Leads to Multiple Guilty Pleas                  two years of imprisonment and three years of supervised
in $1.2 million Payphone Scam                                 release. This sentence follows the sentences of
On February 6, 2012, Colin Nordstrom, Vice President          co-conspirators Jayeskum Patel, to three years of
of Sales for Mid-America Payphone, Inc., pled guilty to       probation; Daniel Bass, to 18 months in prison and three
perjury. On February 17, 2012, August Schober, Mid-           years of supervised release; and Babauk Harizavi, to
America’s Vice President, pled guilty to wire fraud. Jeff     five years of probation. A joint investigation conducted
Frost, Mid-America’s President, pled guilty to money          by GSA OIG, the FBI, United States Postal Inspection
laundering on February 21, 2012. These guilty pleas           Service, Texas Department of Transportation, and the
conclude a GSA OIG investigation initiated after a GSA        National Insurance Crime Bureau disclosed that the
employee reported unusual calling patterns originating        group conspired to use the mechanic’s lien process to
from government pay telephones to toll-free numbers.          file fraudulent paperwork with the Texas Department of
The investigation, worked jointly with Internal Revenue       Motor Vehicles to obtain clean Texas vehicle titles for
Service Criminal Investigation, revealed the trio             damaged vehicles, including GSA Fleet vehicles that
schemed to defraud the federal government, state              had been sold for salvage.
agencies, and private businesses of at least $1.2 million
by programming payphones owned by their company to
exploit the Federal Communications Commission
regulation permitting payphone service providers to
collect $0.49 for every toll-free call completed from their
payphones. The fees collected though this scheme

12  Semiannual Report to the Congress
                                Promoting and Protecting Integrity



Significant Initiatives, Civil Actions, and Criminal Investigations (continued)

Works Progress Administration (WPA)                           During this reporting period, the OIG made 319 referrals
                                                              for consideration of suspension/debarment to the GSA
Art Recovery Project                                          Office of Acquisition Policy. GSA issued 142 suspension
                                                              and debarment actions based on current and previous
GSA is the custodian of the many works of art produced
                                                              OIG referrals.
through the Works Progress Administration (WPA).
Since the United States commissioned countless pieces
of art during the New Deal era, many precious historical      Integrity Awareness
pieces have unlawfully made their way into the
marketplace and collectors’ hands. The OIG has                The OIG presents Integrity Awareness Briefings
continued to work closely with the Public Buildings           nationwide to educate GSA employees on their
Service, Fine Arts Program Office, to identify and            responsibilities for the prevention of fraud and abuse
recover lost and stolen American Cultural Property            and to reinforce employees’ roles in helping to ensure
produced at government expense during the New Deal            the integrity of Agency operations. This period, we
era. We also continued our campaign to more widely            presented 24 briefings attended by 188 regional and
publicize recovery efforts. On May 31, 2011, the Public       Central Office employees. These briefings explain the
Broadcasting Service program, The Antiques Road               statutory mission of the OIG and the methods available
Show, aired a segment concerning our art recovery             for reporting suspected instances of wrongdoing. In
efforts, and we immediately observed an increase in the       addition, through case studies, the briefings make GSA
numbers of reports relating to WPA artwork improperly         employees aware of actual instances of fraud in GSA
remaining in public hands.                                    and other federal agencies and thus help to prevent their
                                                              recurrence. GSA employees are the first line of defense
Our accomplishments during this reporting period              against fraud, abuse, and mismanagement. They are a
include three recoveries of lost artwork which include        valuable source of successful investigative information.
the Head of Lincoln statue by A. William Mues, the
Airfield-Stonington painting by Archie Tillinghast, and       Hotline
The Old Tannery painting by Rockwell Carey.
                                                              The OIG Hotline provides an avenue for employees and
Suspension and Debarment Initiative                           other concerned citizens to report suspected
                                                              wrongdoing. Hotline posters located in GSA-controlled
GSA has a responsibility to ascertain whether the people      buildings encourage employees to use the Hotline. We
or companies it does business with are eligible to            also use our FraudNet Hotline platform to allow Internet
participate in federally-assisted programs and                reporting of suspected wrongdoing. During this reporting
procurements, and that they are not considered                period, we received 1,131 Hotline contacts. Of these
“excluded parties.” Excluded parties are individuals and      contacts, 220 Hotline cases were initiated. In 66 of
companies debarred, suspended, proposed for                   these cases, referrals were made to GSA program
debarment, or declared ineligible to receive contracts by     officials for review and action as appropriate, 49 were
a federal agency. The Federal Acquisition Regulation          referred to other federal agencies for follow up, 92 were
authorizes an agency to suspend or debar individuals or       referred for OIG criminal/civil investigations or audits,
companies for the commission of any offense indicating        and 18 did not warrant further review.
a lack of business integrity or business honesty that
directly affects the present responsibility of a government
contractor or subcontractor. The OIG has made it a
priority to process and forward referrals to GSA, so GSA
can ensure that the government does not award
contracts to individuals or companies that lack business
integrity or honesty.

                                                                                   October 1, 2011 – March 31, 2012 13
                        Forensic Auditing, Evaluation, and Analysis



Forensic Auditing                                             Evaluations and Analysis
The Forensic Auditing function employs innovative             The Evaluation and Analysis function conducts
auditing and investigative techniques to detect fraudulent    operational assessments of OIG field offices and other
or abusive conduct within Agency operations and               operating components. During this reporting period,
programs. It develops evidence that meets the                 evaluation and analysis conducted and closed out two
admissibility standards for prosecution in federal courts.    operational assessments of OIG component offices and
During this period, Forensic Auditing initiated two           initiated three special project reviews on agency
proactive reviews focusing on data-mining and data            operations.
analysis of potentially fraudulent activities. In addition,
the office initiated and closed out a proactive data-
mining examination. Forensic Auditing conducted
operations that led to two referrals to Office of
Investigations for further review and initiated continual
data-mining and analytical support efforts for 12 ongoing
Office of Investigations cases.




14  Semiannual Report to the Congress
                              Government-Wide Policy Activities



We regularly provide advice and assistance on government-wide policy matters to the Agency, as well as to other
federal agencies and to committees of Congress. In addition, as required by the Inspector General Act of 1978, we
review existing and proposed legislation and regulations to determine their effect on the economy and efficiency of
the Agency’s programs and operations and on the prevention and detection of fraud and mismanagement. Because
of the central management role of the Agency in shaping government-wide policies and programs, most of the
legislation and regulations reviewed invariably affect government-wide issues in areas such as procurement, property
management, travel, and government management and information technology systems. To ensure the auditor's
independence when performing subsequent audit work, we participate in Agency task forces, committees, and working
groups in an observer or advisor capacity.

Interagency Committees                                        co-chaired by Inspector General Miller and U.S.
                                                              Department of the Treasury Inspector General Eric
and Working Groups                                            Thorson, has been reaching out through discussions
                                                              and meetings with various audiences throughout the
We participated in a number of interagency committees
                                                              country. GSA OIG has been sharing information with
and working groups that address government-wide
                                                              federal, state, and local partners through a quarterly
issues that cut across agency lines:
                                                              report containing criminal convictions and civil
•• Council of the Inspectors General on Integrity             settlements as well as an interactive map linking state
   and Efficiency (CIGIE). The Inspector General is a         and local websites that contain information on
   member of the Investigations Committee, Professional       disreputable individuals and companies.
   Development Committee, and Homeland Security            •• Government Infrastructure Protection Initiative
   Roundtable.                                                (GIPI). The GSA OIG’s Office of Investigations
  •	 Federal Audit Executive Council Contracting              initiated the Government Infrastructure Protection
     Committee. The Assistant Inspector General for           Initiative (GIPI) to combat the proliferation of
     Audits and the Deputy Assistant Inspector General        counterfeit software, information technology products
     for Auditing, Acquisition Programs Audit Office,         and other business products in the federal supply
     participate in the Federal Audit Executive Council       chain, which could pose a significant vulnerability to
     Contracting Committee, created in December               the government’s infrastructure. GSA OIG partnered
     2007. This Committee provides a forum to share           with the Intellectual Property Rights Center operated
     information about, and coordinate audits of,             by ICE, Homeland Security Investigations.
     significant contracting and procurement issues of     •• Recovery Accountability and Transparency Board
     interest to the OIG community and the federal            Working Group (Recovery Working Group). The
     government as a whole. The Committee also                GSA OIG is a participating member of the Recovery
     develops and recommends best practices to be             Working Group, which is comprised of the 29 OIGs
     used by OIGs in addressing contracting issues.           with responsibilities for overseeing the use of
•• Financial Fraud Enforcement Task Force’s                   Recovery Act funds. The Recovery Working Group
   Recovery Act, Procurement, and Grant Fraud                 provides advice and makes recommendations to the
   Working Group: Public and Private Sector                   Recovery Funds Working Group Committee on how
   Outreach Committee. The U.S. Attorney General’s            best to coordinate the oversight efforts of federal,
   Financial Fraud Enforcement Task Force collaborates        state and local governments.
   with federal agencies and state and local partners to   •• Regional Procurement Fraud Working Group.
   prevent, detect, and prosecute financial fraud. In         The Special Agent in Charge and the Regional
   recognition of the important perspectives on fighting      Inspector General for Auditing in our Heartland
   fraud brought by state and local governments as            Region Office participate in the quarterly meetings of
   well as the private companies, the Public and Private      the Western District of Missouri and Kansas Regional
   Sector Outreach Committee of the Task Force,               Procurement Fraud Working Group (Working Group).



                                                                                 October 1, 2011 – March 31, 2012 15
                               Government-Wide Policy Activities



Interagency Committees and Working Groups (continued)

  The goal of the Working Group is to detect, prevent       Legislation, Regulations,
  and prosecute procurement fraud. The meetings are
  chaired by the Chief of the Fraud and Corruption Unit
                                                            and Subpoenas
  of the U.S. Attorney’s Office for the Western District
                                                            During this reporting period, the OIG reviewed numerous
  of Missouri.      Members of the group include
                                                            legislative matters and proposed regulations. We also
  representatives from the Department of Justice, the
                                                            responded to requests from Congressional members on
  Regional Field Office of the FBI, and the region’s
                                                            behalf of their constituents. Additionally, we issued 60
  Offices of Inspectors General. The Working Group’s
                                                            subpoenas in support of our audit, inspection, evaluative,
  meetings are attended by attorneys, agents and
                                                            and investigative work. The OIG also made substantive
  auditors from various federal government agencies.
                                                            comments on several proposed laws and regulations.
  In addition to increasing the contact, and improving
  the communication, between agencies and the U.S.
  Attorney’s Offices, these meetings have resulted in       Intra-agency Task Forces, Committees,
  innovative methods to identify and prosecute fraud        and Working Groups
  and have brought about the development of
  collaborative cases among different government            The OIG provides advice and counsel to GSA while
  agencies.                                                 monitoring ongoing Agency initiatives. Our rep-
                                                            resentatives advise management of potential problems
•• TeamMate Technical Support Group.            Our
                                                            at the earliest possible opportunity. Our purpose is to
   TeamMate Technical Support Group participates in
                                                            help ensure that appropriate management controls are
   the TeamMate Federal Users Group and the
                                                            in place when installing new, or modifying existing,
   Commerce Clearing House TeamMate Users Group
                                                            Agency systems, and to offer possible solutions when
   to discuss concerns and new challenges facing
                                                            addressing complex financial and operational issues.
   TeamMate users. TeamMate is an automated audit
   workpaper management system that strengthens the         Our participation with the Agency on task forces,
   audit process and increases the efficiency of our        committees, and working groups—typically as nonvoting
   auditors.                                                advisory members—allows us to contribute our
•• Interagency Fraud and Risk Data Mining Group             expertise and advice, while improving our familiarity with
   (IFRDMG). The Office of Forensic Auditing,               the Agency’s rapidly changing systems. However, the
   Evaluation, and Analysis, is a participating member of   nature of our involvement does not preclude our ability
   the IFRDMG, and hold an executive committee board        to independently audit Agency programs.
   member position in guiding the future of this group.
   The IFRDMG collaborates the efforts of investigators
   and auditors across the federal Inspector General
   community for the purpose of sharing best practices
   and evaluating the latest data mining and risk
   modeling tools and techniques to detect emerging
   risks and patterns.




16  Semiannual Report to the Congress
                               Government-Wide Policy Activities



Interagency Committees and Working Groups (continued)

During this period we were involved with:

•• The Multiple Award Schedule Working Group.               with particular contracts or audits. The MAS Working
   The Multiple Award Schedule (MAS) Working Group          Group developed guidance for MAS contracting
   was established as a result of an OIG report released    officers regarding the performance and use of
   in August 2001 relating to MAS contracting pricing       preaward MAS contract audits and reinvigorated the
   practices. The MAS Working Group is primarily            process by which FAS and the OIG select and
   comprised of representatives from the FAS and the        commence preaward audits of contractors. The MAS
   OIG, along with representatives from the Office of the   Working Group has also focused on issuing guidance
   Chief Acquisition Officer and ad hoc members from        to contracting officers regarding negotiation objectives
   within other branches of the Agency. The MAS             and discrete negotiation issues for MAS contract
   Working Group has served as an effective                 awards. It has also provided input to FAS in its efforts
   institutionalized communications channel for both        to upgrade or enhance pricing performance measures
   broad policy issues and discrete issues having to do     on MAS contracts.




                                                                               October 1, 2011 – March 31, 2012 17
                          Statistical Summary of OIG Accomplishments



Reports Issued                                                         Management Decisions on Reports
The OIG issued 45 reports. The 45 reports contained                    Table 1 summarizes the status of the universe of reports
financial recommendations totaling $316,250,188 including              requiring management decisions during this period, as
$301,500,542 in recommendations that funds be put to                   well as the status of those reports as of March 31, 2012.
better use and $14,749,646 in questioned costs. Due to                 Table 1 does not include two implementation reviews
GSA’s mission of negotiating contracts for government-                 that were issued during this period because they are
wide supplies and services, most of the savings from                   excluded from the management decision process.
recommendations that funds be put to better use would be               Table 1 also does not include two reports excluded from
applicable to other federal agencies.                                  the management decision process because they pertain
                                                                       to ongoing investigations.




Table 1. Management Decisions on OIG Reports
                                                                                    Reports with                     Total
                                                                                     Financial                     Financial
                                                     Number of Reports           Recommendations*              Recommendations
 For which no management decision had been made as of 10/01/2011
 Less than six months old                                       28                           16                     $50,017,063
 Six or more months old                                          0                            0                              $0
 Reports issued this period                                     43                           28                    $316,250,188
                                       TOTAL                    71                           44                    $366,267,251
 For which a management decision was made during the reporting period
 Issued prior periods                                           28                           16                     $50,017,063
 Issued current period                                          21                           16                     $74,370,057
                                       TOTAL                    49                           32                    $124,387,120
 For which no management decision had been made as of 03/31/2012
 Less than six months old                                       22                           12                    $241,880,131
 Six or more months old                                          0                            0                              $0
                                       TOTAL                    22                           12                    $241,880,131

*These totals include audit reports issued with both recommendations that funds be put to better use and questioned costs.




18  Semiannual Report to the Congress
                        Statistical Summary of OIG Accomplishments



Management Decisions on Reports with Financial Recommendations
Tables 2 and 3 present the reports identified in Table 1 as containing financial recommendations by category (funds to
be put to better use or questioned costs).



Table 2. Management Decisions on OIG Reports with Recommendations that
Funds Be Put to Better Use
                                                  Number of Reports               Financial Recommendations
 For which no management decision had been made as of 10/01/2011
 Less than six months old                                  11                               $49,397,634
 Six or more months old                                     0                                         $0
 Reports issued this period                                22                             $301,500,542
                                 TOTAL                     33                             $350,898,176
 For which a management decision was made during the reporting period
 Recommendations agreed to by
 management based on proposed –
   Management action                                       24                             $123,411,028
   Legislative action                                       0                                         $0
 Recommendations not agreed to
 by management                                              1                                  $194,658
                                 TOTAL                     25                             $123,605,686
 For which no management decision had been made as of 03/31/2012
 Less than six months old                                   8                             $227,292,490
 Six or more months old                                     0                                         $0
                                 TOTAL                      8                             $227,292,490




                                                                                  October 1, 2011 – March 31, 2012 19
                       Statistical Summary of OIG Accomplishments



Table 3. Management Decisions on OIG Reports with Questioned Costs
                                            Number of Reports           Questioned Costs
 For which no management decision had been made as of 10/01/2011
 Less than six months old                            8                       $619,429
 Six or more months old                              0                             $0
 Reports issued this period                          14                    $14,749,646
                                 TOTAL               22                    $15,369,075
 For which a management decision was made during the reporting period
 Disallowed costs                                    15                      $781,434
 Cost not disallowed                                 0                             $0
                                 TOTAL               15                      $781,434
 For which no management decision had been made as of 03/31/2012
 Less than six months old                            7                     $14,587,641
 Six or more months old                              0                             $0
                                 TOTAL               7                     $14,587,641




20  Semiannual Report to the Congress
                        Statistical Summary of OIG Accomplishments



Investigative Workload                                            part of GSA employees, contractors, or private individuals
                                                                  doing business with the government.
The OIG opened 204 investigative cases and closed
166 cases during this period. In addition, the OIG                During this period, the OIG also made 12 referrals to
received and evaluated 72 complaints and allegations              GSA officials for information purposes only.
from sources other than the Hotline that involved GSA
employees and programs. Based upon our analyses of                Actions on OIG Referrals
these complaints and allegations, OIG investigations
were not warranted.                                               Based on these and prior referrals, 35 cases (53 subjects)
                                                                  were accepted for criminal prosecution and five cases
Referrals                                                         (six subjects) were accepted for civil litigation. Criminal
                                                                  cases originating from OIG referrals resulted in 42
The OIG makes criminal referrals to the Department of             indictments/informations and 31 successful prosecutions.
Justice or other authorities for prosecutive consideration,       OIG civil referrals resulted in three case settlements.
and civil referrals to the Civil Division of the Department       Based on OIG administrative referrals, management
of Justice or to U.S. Attorneys for litigative consideration.     debarred 42 contractors/individuals, suspended 100
The OIG also makes administrative referrals to GSA                contractors/individuals, and took nine personnel actions
officials on certain cases disclosing wrongdoing on the           against employees.




Table 4. Summary of OIG Referrals
 Type of Referral                                               Cases                              Subjects
 Criminal                                                        57                                         88
 Civil                                                            9                                         10
 Administrative                                                  53                                         69
 Suspension                                                      45                                        117
 Debarment                                                       72                                        202
                                   TOTAL                         236                                       486




                                                                                        October 1, 2011 – March 31, 2012 21
                       Statistical Summary of OIG Accomplishments



Monetary Results
Table 5 presents the amounts of fines, penalties,             Table 6 presents the amount of administrative recoveries
settlements, recoveries, forfeitures, judgments, and          and forfeitures as a result of investigative activities.
restitutions payable to the U.S. government as a result
of criminal and civil actions arising from OIG referrals.

Table 5. Criminal and Civil Recoveries
                                                        Criminal                               Civil
 Fines and Penalties                                        $139,085
 Settlements                                                                               $207,678,800
 Recoveries
 Forfeitures                                           $4,618,438
 Seizures                                                     $3,949
 Restitutions                                          $3,836,453
                                  TOTAL                $8,597,925                          $207,678,800




Table 6. Other Monetary Results


 Administrative Recoveries                                                                   $2,218,316
 Forfeitures                                                                                      $1,466
                                  TOTAL                                                      $2,219,782




22  Semiannual Report to the Congress
APPENDICES




        October 1, 2011 – March 31, 2012 23
24  Semiannual Report to the Congress
                      Appendix I–Significant Audits from Prior Reports



Under the Agency audit management decision process,           FY 2011 FISMA Audit of GSA’s
the GSA Office of Administrative Services, GAO/IG
Audit Response Division, is responsible for tracking the
                                                              Information Technology Security
implementation of audit recommendations after a               Program
management decision has been reached. That office             Period First Reported: April 1, 2011 to September 30, 2011
furnished the following status information.
                                                              The objective of the audit was to determine if GSA has
Sixteen audits identified in prior reports to the Congress    developed, documented, and implemented an Agency-
have not yet been fully implemented. These audits are         wide information security program. The report contained
being implemented in accordance with currently                five recommendations, which have not been
established milestones.                                       implemented.

                                                              The recommendations involve the Office of the Chief
                                                              Information Officer strengthening configuration
Acquisition Career Management                                 management practices; improving security of GSA’s
Information System (ACMIS)                                    social media technologies; clarifying labeling
Period First Reported: April 1, 2011 to September 30, 2011    requirements for GSA’s sensitive security documentation;
                                                              improving personal security of commercial systems
The objective of the audit was to assess the reliability of   used to provide government services; and ensuring that
the data contained in the Acquisition Career Management       appropriate warning banners are displayed. They are
Information System (ACMIS). Specifically, we evaluated        scheduled for completion between July 15, 2012 and
how useful the data is in making management decisions         October 15, 2012.
regarding budgeting, staffing, training, and employee
development related to GSA’s acquisition workforce.
The report contained seven recommendations; four
have not been implemented.
                                                              Information Technology Solution
                                                              Shop (ITSS) System Performance and
The remaining recommendations involve implementing            Functionality
controls during system planning and development to            Period First Reported: April 1, 2011 to September 30, 2011
ensure data reliability; working with the Office of Federal
Procurement Policy to establish controls regarding            The objective of the audit was to assess the performance
agency accountability to ensure system use and                and functionality of ITSS in meeting system users’
government-wide data accuracy; ensuring contracts             needs. The report contained two recommendations,
awarded for the development, implementation, and              which have not been implemented.
maintenance of the system contain proper requirements
related to user support; and ensuring that the                The recommendations involve designing a fully-
development, implementation, and maintenance of the           functional procurement system for the Assisted
system that will replace ACMIS adhere to system               Acquisition Service that incorporates a standardized
development life cycle guidelines. They are scheduled         procurement process; and developing standardized
for completion between April 15, 2012 and July 15, 2012.      training for ITSS system users. They are scheduled for
                                                              completion by May 15, 2012.




                                                                                       October 1, 2011 – March 31, 2012 25
                      Appendix I–Significant Audits from Prior Reports



GSA’s Transition from FTS2001 to                                The remaining recommendation involves PBS ensuring
                                                                that firm-fixed price contracts are negotiated in final
Networx                                                         prior to award, rather than subject to retrospective
Period First Reported: April 1, 2011 to September 30, 2011
                                                                pricing adjustments based on post-award audits by the
                                                                GSA Office of Inspector General. It is scheduled for
The objectives of the audit were to assess GSA’s
                                                                completion by April 15, 2012.
transition to Networx and to examine what GSA can do
to improve future telecommunications transitions. The
report contained two recommendations; one has not
been implemented.                                               Recovery Act Report - Improper
                                                                Obligation of Construction
The remaining recommendation involves documenting
identified internal setbacks, obstacles encountered, and
                                                                Contingency Funds
                                                                Period First Reported: April 1, 2011 to September 30, 2011
the lessons learned during the transition from FTS2001
to Networx to facilitate the execution of future transitions.
                                                                The objective of the audit was to determine if GSA is
It is scheduled for completion by May 15, 2012.
                                                                planning, awarding, and administering contracts for
                                                                major construction and modernization projects in
                                                                accordance with prescribed criteria and Recovery Act
GSA’s Fleet Monitoring of Alternative                           mandates. The report contained one recommendation,
Fuel Vehicle Surcharge Payments                                 which has not been implemented.
Period First Reported: April 1, 2011 to September 30, 2011
                                                                The recommendation involves PBS developing and
The objective of the audit was to determine if GSA Fleet        implementing methodology to review GSA contract
appropriately monitors Alternative Fuel Vehicle (AFV)           modifications to ensure that obligations are valid. It is
monthly surcharges collected from customer agencies             scheduled for completion by June 15, 2012.
and, if material weaknesses are identified with GSA
Fleet’s monitoring processes, what actions should be
taken. The report contained two recommendations; one            Consistency in Implementing Policy
has not been implemented.
                                                                Across Acquisition Centers -
The remaining recommendation involves modifying AFV             Temporary Extensions
surcharge payment monitoring practices to ensure                Period First Reported: October 1, 2010 to March 31, 2011
compliance with federal regulations. It is scheduled for
completion by November 15, 2012.                                The objective of the audit was to determine if FAS
                                                                acquisition centers are consistently implementing and
                                                                adhering to regulations, policies, and procedures
                                                                regarding temporary extensions. The report contained
Recovery Act Report - Thurgood                                  three recommendations; one has not been implemented.
Marshall U.S. Courthouse Project
Period First Reported: April 1, 2011 to September 30, 2011      The remaining recommendation involves improving
                                                                FAS’s ability to manage and reduce the need for
The objective of the audit was to determine if PBS is           temporary extensions within the MAS program by
planning, awarding, and administering contracts for             developing an automated method of accumulating and
major construction and modernization projects in                reporting data regarding the use of temporary extensions.
accordance with prescribed criteria and Recovery Act            It is scheduled for completion by April 15, 2012.
mandates. The report contained two recommendations;
one has not been implemented.




26  Semiannual Report to
                      to the
                          the Congress
                              Congress
                      Appendix I–Significant Audits from Prior Reports



Information Technology Security                            sent to the CFO IT Security mailbox for 12 months. They
                                                           are scheduled for completion between April 15, 2012
Audit of the Information Technology                        and October 15, 2012.
Solution Shop (ITSS) System
Period First Reported: October 1, 2010 to March 31, 2011

The objective of the audit was to determine if FAS has
                                                           Multiple Award Schedule Vendors’
implemented management, operational, and technical         Invoicing Practices Relative to
security controls to effectively manage risks inherent     Prompt-Payment Discounts
with a “moderate” risk system, in accordance with          Period First Reported: October 1, 2009 to March 31, 2010
FISMA and GSA’s IT Security Program. The report
contained four recommendations; one has not been           The objective of the audit was to determine the extent to
implemented.                                               which the Government may be at risk of losing Prompt
                                                           Payment Discount (PPD) savings as the result of MAS
The remaining recommendation involves FAS                  vendors citing incorrect payment terms on their invoices.
implementing two-factor authentication for remote          The report contained seven recommendations; one has
access by the ITSS system administrators. It is            not been implemented.
scheduled for completion by June 15, 2012.
                                                           The remaining recommendation involves the FAS
                                                           seeking recoveries, when economical, advisable, and
Audit of the General Services                              feasible from MAS vendors when there is a failure to cite
                                                           contractual PPD terms on invoices. It is scheduled for
Administration’s Fiscal Year 2010                          completion by April 15, 2012.
Financial Statements
Period First Reported: October 1, 2010 to March 31, 2011

The objective was to conduct an audit of GSA's
                                                           Opportunities Exist to Improve GSA’s
consolidated balance sheet, the individual balance         Implementation of the E2 Travel
sheet of the Federal Building Fund and the Acquisition     System
Service Fund, the related consolidated and individual      Period First Reported: October 1, 2009 to March 31, 2010
statement of net cost, the changes in net position and
the combined and individual statements of budgetary        The objective of the audit was to determine whether
resources for fiscal year 2010. The report contained 117   GSA’s implementation of the E2 system is effectively
recommendations; six have not been implemented.            and efficiently meeting management and user needs,
                                                           including program and financial requirements, and the
The remaining recommendations involve the Office of        achievement of intended goals and benefits for an
the Chief Financial Officer (CFO) working with agency      e-Government travel management system. The report
officials to adjust or implement automated application     contained two recommendations; one has not been
controls to ensure that the corresponding feeder systems   implemented.
have the capability to capture all necessary data to
report financial transactions; reviewing GSA policies      The remaining recommendation involves the Chief
and procedures regarding the use of encryption during      Financial Officer taking the necessary actions to improve
the user authentication process; implementing              system usability by (a) coordinating with the E-Gov
encryption for OA Tool, OA Billing, and RETA; developing   Travel Management Office to have GSA employee
and implementing a process to review and document a        concerns addressed with system modifications, (b)
periodic review of PBS Portal audit logs identifying       promoting training for E2 for GSA employees, and (c)
access violations; reviewing Pegasys user audit logs to    reconsidering Section 508 compliance requirements. It
determine that application use was appropriate; and        is scheduled for completion by July 15, 2012.
maintaining audit log histories that are backed up to
media for 24 months and security exceptions that were


                                                                                   October 1, 2011 – March 31, 2012 27
                      Appendix I–Significant Audits from Prior Reports



GSA’s Fiscal Year 2009 Financial                             Review of Program Performance
Statements                                                   Measurement for the MAS
Period First Reported: October 1, 2009 to March 31, 2010     Procurement Program
                                                             Period First Reported: April 1, 2009 to September 30, 2009
The objective of the audit was to provide a report on
internal controls over financial reporting, including        The objective of the audit was to determine if the FAS
safeguarding assets and compliance with laws and             has performance measures for MAS contracting officers
regulations, and if necessary, to report instances in        that stress the importance of contract quality, including
which GSA’s financial management systems did not             pricing, and if not, to identify potential performance
substantially comply with the requirements of the Federal    measures FAS could implement to ensure that MAS
Financial Management Improvement Act of 1996. The            contracts reflect the intent and goals of the Schedules
report contained 85 recommendations; two have not            program. The report contained three recommendations;
been implemented.                                            one has not been implemented.
The remaining recommendations involve the Chief              The remaining recommendation focuses on the
Financial Officer working with other agency officials to:    establishment of an internal review program that can
develop and implement a process to review and                quantifiably assess whether MAS contracts meet
document a periodic review of PBS portal audit logs          requirements for quality in terms of compliance with
identifying access violations; and update web server to      laws, regulations and guidelines. It is scheduled for
restrict arbitrary HTML/Code to address cross-site           completion by May 15, 2012.
scripting issues. They are scheduled for completion by
May 15, 2012.
                                                             Multiple Award Schedule Program
Consistency in Implementing Policy                           Contract Workload Management
                                                             Period First Reported: April 1, 2007 to September 30, 2007
Across Acquisition Centers
Period First Reported: April 1, 2009 to September 30, 2009   The objective of the audit was to determine if the FAS
                                                             was effectively managing the workload associated with
The objectives of the audit were to determine if policy      processing contract actions in the Schedules program.
and related guidance for the MAS Program are being           The report contained ten recommendations; two have
implemented effectively by the Acquisition Centers, and      not been implemented.
to identify best practices for use by the Centers. The
objectives were further narrowed to focus on pricing,        The remaining recommendations involve establishing
including rate escalation and price adjustment. The          specific nationwide guidance related to Price Analysis
report contained four recommendations; one has not           Documentation Requirements and Negotiation Policies
been implemented.                                            and Techniques for schedule contracts; and developing
                                                             standardized procedures for the initial screening of
The remaining recommendation involves FAS developing         offers. They are scheduled for completion by April 15,
and implementing policy and training for acquisition         2012.
personnel on a number of subjects, including most
favored customer pricing, the use of cost analyses, and
the use of volume discounting during negotiations. It is
scheduled for completion by May 15, 2012.




28  Semiannual Report to
                      to the
                          the Congress
                              Congress
                              Appendix II–Audit Report Register
                                                                                        Financial
                                                                                   Recommendations
                                                                               Funds to         Questioned
Date of        Report                                                         Be Put to       (Unsupported)
Report         Number                    Title                                Better Use          Costs

(Note: Because some audits pertain to contract awards or actions that have not yet been completed, the financial
recommendations related to these reports are not listed in this Appendix.)


PBS Internal Audits
01/10/12       A110119         Review of Public Building Service's                                        $32,836
                               Procurement of Public Relations Services
                               at the Bannister Federal Complex, Task
                               Order GS-P-06-10-GX-0012
02/17/12       A110215         Recovery Act Report - Audit of Small
                               Project American Recovery and
                               Reinvestment Act of 2009 Funding Used
                               for Move Costs
03/08/12       A090172         Recovery Act Report - Robert A. Young
                               Federal Building Envelope Improvement
                               Construction Project, Audit of PBS's Major
                               Construction and Modernization Projects
                               Funded by the American Recovery and
                               Reinvestment Act of 2009
03/30/12       A090172         Recovery Act Report - Mariposa Land Port
                               of Entry Modernization Project
                               Construction Management Services for
                               Phase 1 Construction Audit of PBS's Major
                               Construction and Modernization Projects
                               Funded by the American Recovery and
                               Reinvestment Act of 2009
03/30/12       A090172         FY 2012 Office of Inspector General
                               Information Technology Security Audit of
                               the REXUS System
03/30/12       A120055         Recovery Act Report - Improper Obligation
                               of Construction Funds for the 1800 F
                               Street Modernization Project Audit of
                               PBS's Major Construction and
                               Modernization Projects Funded by the
                               American Recovery and Reinvestment Act
                               of 2009

PBS Attestation Engagements
10/18/11       A100215         Examination of Construction Management
                               Services Contract: Bovis Lend Lease LMB,
                               Inc., Contract Number GS-02P-07-DTC-
                               0009(NEG), Modification Number PS08




                                                                                October 1, 2011 – March 31, 2012 29
                                Appendix II–Audit Report Register
                                                                                      Financial
                                                                                 Recommendations
                                                                             Funds to         Questioned
Date of         Report                                                      Be Put to       (Unsupported)
Report          Number                    Title                             Better Use          Costs

12/01/11        A110170         Examination of a Claim: Salsbury Electric
                                Company, Inc., Subcontractor to
                                Associated Builders, Inc., Contract No.
                                GS-11B-07-YTC-0489
12/02/11        A110205         Examination of Cost Accounting Standards
                                Board Disclosure Statement: Gilbane
                                Building Company - Southwest Region,
                                Contract Number GS-07P-09-UY-C-0008
12/19/11        A110153         Examination of a Claim: Letsos Company,
                                Subcontractor to W. G. Yates & Sons
                                Construction Company, Contract Number
                                GS-07P-05-URC-5007
01/31/12        A110177         Examination of a Claim: Way Engineering,
                                Ltd., Subcontractor to W. G. Yates & Sons
                                Construction Company, Contract Number
                                GS-07P-05-URC-5007, Originally Issued
                                November 22, 2011, Revised Version
                                Issued January 31, 2012
02/03/12        A120065         Examination of a Claim: Bergelectric
                                Corporation, Subcontractor to Caddell
                                Construction Co., Inc., Contract Number
                                GS-07P-05-UEC-3003
02/08/12        A120075         Examination of a Claim: Enola Contracting
                                Services, Inc., Contract Number GS-04P-
                                07-EX-C-0167
03/28/12        A120070         Examination of a Claim: Cobb Mechanical
                                Contractors, Subcontractor to Caddell
                                Construction Co., Inc., Contract Number
                                GS-07P-05-UEC-3003

FAS Internal Audits
12/14/11        A110105         Audit of GSA's Acquisition of Vehicles
01/19/12        A120072         Implementation Review of Corrective
                                Action Plan, Audit of Personal Property
                                Management Donation Program, Federal
                                Acquisition Service, Report Number
                                A080104/Q/5/P09003, Dated August 25,
                                2009
01/20/12        A110065         Opportunities to Improve the Federal
                                Acquisition Service's City Pair Program
                                Through Data Analysis




30  Semiannual Report to the Congress
                     Appendix II–Audit Report Register
                                                                           Financial
                                                                      Recommendations
                                                                  Funds to         Questioned
Date of    Report                                                Be Put to       (Unsupported)
Report     Number             Title                              Better Use          Costs

02/03/12   A090256   Audit of the Multiple Award Schedule
                     Program Industrial Funding Fee
03/30/12   A110117   Audit of Personal Property Donation
                     Program: New Jersey State Agency for
                     Surplus Property, Federal Acquisition
                     Service, Northeast and Caribbean Region
03/30/12   A120052   Audit of GSA's Cost-Reimbursement
                     Contracts

FAS Attestation Engagements
10/13/11   A100210   Preaward Examination of Multiple Award
                     Schedule Contract Extension: Labat-
                     Anderson, Inc., Contract Number GS-25F-
                     0028L
11/15/11   A110197   Preaward Examination of Multiple Award                                   $1,331
                     Schedule Contract Extension: KDH
                     Defense Systems, Inc., Contract Number
                     GS-07F-0249T
11/17/11   A100217   Preaward Examination of Multiple Award
                     Schedule Contract: CliniComp
                     International, Inc., Contract Number
                     GS-35F-0475L
11/17/11   A110159   Preaward Examination of Multiple Award                                  $11,370
                     Schedule Contract Extension: Wright Line,
                     LLC, Contract Number GS-29F-0100G
12/01/11   A110164   Preaward Examination of Multiple Award                                 $45,240
                     Schedule Contract Extension: Akal
                     Security, Inc., Contract Number GS-07F-
                     0061M
12/07/11   A110176   Preaward Examination of Multiple Award
                     Schedule Contract Extension: Fontaine
                     Trailer Company, Incorporated, Contract
                     Number GS-30F-0018T
12/16/11   A110162   Preaward Examination of Multiple Award                                  $5,584
                     Schedule Contract Extension: Ogilvy
                     Public Relations Worldwide, Contract
                     Number GS-23F-0060M
12/20/11   A110155   Preaward Examination of Multiple Award                                $263,653
                     Schedule Contract Extension: Terrapin
                     Systems, LLC., Contract Number GS-35F-
                     0562L



                                                                  October 1, 2011 – March 31, 2012 31
                                Appendix II–Audit Report Register
                                                                                       Financial
                                                                                  Recommendations
                                                                              Funds to         Questioned
Date of         Report                                                       Be Put to       (Unsupported)
Report          Number                   Title                               Better Use          Costs

12/22/11        A110178         Preaward Examination of Multiple Award                              $49,653
                                Schedule Contract Extension: Sharp
                                Electronics Corporation, Contract Number
                                GS-25F-0037M
12/27/11        A110191         Preaward Examination of Multiple Award                               $24,137
                                Schedule Contract Extension: Scott
                                Technologies Incorporated, Contract
                                Number GS-07F-9563G
12/27/11        A110198         Preaward Examination of Multiple Award
                                Schedule Contract Extension: Paradigm
                                Technologies Incorporated, Contract
                                Number GS-23F-0023T
01/19/12        A110152         Preaward Examination of Multiple Award
                                Schedule Contract Extension: Technology
                                Associates International Corporation,
                                Contract Number GS-35F-0474L
01/23/12        A110186         Preaward Examination of Multiple Award
                                Schedule Contract Extension: BRSI, L.P.,
                                Contract Number GS-23F-0186L
02/17/12        A110112         Limited Scope Postaward Examination of                           $13,106,692
                                Multiple Award Schedule Contract:
                                National Instruments Corporation, Contract
                                Number GS-24F-0007K
02/22/12        A110089         Preaward Examination of Multiple Award                                 $714
                                Schedule Contract Extension: Quality
                                Software Services, Inc., Contract Number
                                GS-35F-0308L
03/01/12        A110097         Preaward Examination of Multiple Award
                                Schedule Contract Extension: Dell
                                Marketing, L.P., Contract Number GS-35F-
                                4076D
03/02/12        A120021         Preaward Examination of Multiple Award                               $31,878
                                Schedule Contract Extension: Presidio
                                Networked Solutions, Inc., Contract
                                Number GS-35F-4554G
03/07/12        A110200         Preaward Examination of Multiple Award                              $24,690
                                Schedule Contract Extension: Deco, Inc.,
                                Contract Number GS-07F-0103M
03/16/12        A100191         Postaward Examination of Multiple Award                           $1,131,143
                                Schedule Contract Number GS-29F-0119C
                                for the Period January 1, 2004 to June 30,
                                2010: ErgoGenesis, LLC



32  Semiannual Report to the Congress
                        Appendix II–Audit Report Register
                                                                               Financial
                                                                          Recommendations
                                                                      Funds to         Questioned
Date of    Report                                                    Be Put to       (Unsupported)
Report     Number                 Title                              Better Use          Costs

03/21/12   A120022      Preaward Examination of Multiple Award                                  $20,725
                        Schedule Contract Extension: Telos
                        Corporation, Contract Number
                        GS-35F-4315D
03/27/12   A120074      Preaward Examination of Multiple Award
                        Schedule Contract Extension: Kimball
                        International, Inc., Contract Number
                        GS-29F-0177G
Other Internal Audits
10/25/11   A110189      Implementation Review of Corrective
                        Action Plan of the Audit of GSA's Living
                        Quarters Allowance Process, Report
                        Number A090103/B/F/F09009, Dated
                        September 4, 2009
12/22/11   A110103      Audit of General Services Administration's
                        Fiscal Year 2011 Financial Statements
03/09/12   A120002      Audit of GSA's Improper Payments
                        Performance
03/29/12   A120054      FY 2012 Office of Inspector General
                        Information Technology Security Audit of
                        the Data.gov - Terremark System




                                                                      October 1, 2011 – March 31, 2012 33
 Appendix III–OIG Reports over 12 Months Old, Final Agency Action Pending
Public Law 104-106 requires the head of a Federal                In GSA, the Office of Administrative Services is
agency to complete final action on each management               responsible for monitoring and tracking open
decision required with regard to a recommendation in             recommendations. While we continue to assist the
an Inspector General's report within 12 months after the         Agency in resolving these open items, various litigative
date of the report. If the head of the Agency fails to           proceedings, continuing negotiations of contract
complete final action within the 12-month period, the            proposals, and corrective actions needed to undertake
Inspector General shall identify the matter in the               complex and phased-in implementing actions often
semiannual report until final action is complete.                delay timely completion of the final action.

The Office of Administrative Services provided the following list of reports with action items open beyond 12 months:

Date of	        Report
Report	         Number	                                              Title	

Attestation Engagements
8/28/07         A060196           Preaward Review of Request for Equitable Adjustment: Tigard Electric,
                                  Incorporated, Contract Number GS-10P-02-LTC-0025
4/29/08         A080084           Review of Change Order Proposal for Resolution of Wage Rate: Kenmor Electrical
                                  Company, LP, Contract Number GS-07P-05-URC-5007
8/5/08          A080077           Preaward Review of Multiple Award Schedule Contract Extension: Gartner, Inc.,
                                  Contract Number GS-35F-5014H
12/12/08        A080177           Preaward Review of Multiple Award Schedule Contract Extension: Tecolote
                                  Research, Incorporated, Contract Number GS-35F-5115H
12/29/08        A090042           Postaward Audit Report on Direct Costs Incurred on Trilogy Project: Computer
                                  Sciences Corporation, Contract Number GS00-T99-ALD204
1/20/09         A080136           Preaward Review of Multiple Award Schedule Contract Extension: Dynamic
                                  Decisions, Inc., Contract Number GS-35F-5879H
2/4/09          A080067           Preaward Review of Multiple Award Schedule Contract Extension: Haworth, Inc.,
                                  Contract Number GS-28F-8014H
3/3/09          A080085           Preaward Review of Multiple Award Schedule Contract Extension: The HON
                                  Company, Contract Number GS-28F-8047H
3/23/09         A080212           Preaward Review of Multiple Award Schedule Contract Extension: Phillips
                                  Corporation - Federal Division, Contract Number GS-07F-7729C
4/27/09         A080210           Preaward Review of Multiple Award Schedule Contract Extension:
                                  ImmixTechnology, Inc., Contract Number GS-35F-033J
6/11/09         A080077           Limited Scope Postaward Review of Multiple Award Schedule Contract: Gartner,
                                  Inc., Contract Number GS-35F-5014H
7/8/09          A090007           Preaward Review of Multiple Award Schedule Contract Extension: Booz Allen
                                  Hamilton, Inc., Contract Number GS-35F-0306J
8/6/09          A090145           Preaward Review of Multiple Award Schedule Contract Extension: BTAS, Inc.,
                                  Contract Number GS-35F-0546J
8/19/09         A090106           Preaward Review of Multiple Award Schedule Contract Extension: Perot Systems
                                  Government Services, Inc., Contract Number GS-00F-0049M



34  Semiannual Report to the Congress
Appendix III–OIG Reports over 12 Months Old, Final Agency Action Pending
Date of	   Report
Report	    Number	                                  Title	

8/21/09    A080030   Preaward Review of Multiple Award Schedule: Hewlett-Packard Company,
                     Solicitation Number FCIS-JB-980001
8/21/09    A090090   Preaward Review of Multiple Award Schedule Contract Extension: Ezenia!, Inc.,
                     Contract Number GS-35F-0475P
8/27/09    A090228   Report on Audit of Parts of A Firm Fixed Price Proposal for Architectural and
                     Engineering Services on the New St. Elizabeth's West Campus of the U.S.
                     Department of Homeland Security Headquarters and Consolidated National
                     Operations Center (NOC): Greenhorne & O'Mara, Inc., Solicitation Number GS11-
                     P08-MKC0079
9/3/09     A090089   Preaward Review of Multiple Award Schedule Contract Extension: Mohawk Carpet
                     Corporation, Less Carpets Division, Contract Number GS-27F-0031N
9/4/09     A090074   Preaward Review of Multiple Award Schedule Contract Extension: Tech Flow, Inc.,
                     Contract Number GS-35F-0210J
9/4/09     A090254   Report on Audit of Parts of a Firm Fixed price Proposal for Architectural and
                     Engineering Services on the New St. Elizabeth's West Campus of the U.S.
                     Department of Homeland Security Headquarters and Consolidated National
                     Operations Center (NOC): Greenhorne & O'Mara, Inc., Solicitation Number GS11-
                     P08-MKC0080
9/9/09     A090232   Report on Audit of Parts of a Firm Fixed Price Proposal for Architectural and
                     Engineering Services on the New St. Elizabeth's West Campus of the United
                     States Department of Homeland Security Headquarters and Consolidated National
                     Operations Center in Washington, DC: Haley & Aldrich, Inc., Solicitation Number
                     GS11-P08-MKC0079
9/10/09    A090234   Report on Audit of Direct Labor Rates, Indirect Rates, and Other Direct Costs
                     Portion of a Subcontract Proposal: HDR Architecture, Inc., Solicitation Number
                     GS11-P08-MKC0079
9/25/09    A090118   Interim Postaward Review of Multiple Award Schedule Contract: Murray-Benjamin
                     Electric Co., Contract Number GS-35F-0088N
10/21/09   A080155   Limited Scope Postaward Review of Multiple Award Schedule for the Period
                     February 1, 2003 to March 31, 2008: Cascades Technologies, Inc., Contract
                     Number GS-35F-0293N
10/23/09   A090170   Preaward Review of Multiple Award Schedule Contract Extension: eTouch Systems
                     Corporation, Contract Number GS-35F-0627P
11/9/09    A090202   Preaward Review of Multiple Award Schedule Contract Extension: Computech,
                     Inc., Contract Number GS-35F-0108K
11/17/09   A080144   Preaward Review of Multiple Award Schedule Contract Proposal: BMC Software,
                     Inc., Solicitation Number FCIS-JB-980001-B
12/10/09   A090159   Preaward Review of Multiple Award Schedule Contract Extension: RCF Information
                     Systems, Inc., Contract Number GS-35F-0613J
12/16/09   A090101   Review of Claim: Paramount Mechanical Corp., Subcontractor to PJ Dick Inc.,
                     Contract Number GS-11P-02-MKC-0055



                                                                      October 1, 2011 – March 31, 2012 35
Appendix III–OIG Reports over 12 Months Old, Final Agency Action Pending
Date of	       Report
Report	        Number	                                         Title	

2/24/10        A090198          Preaward Review of Multiple Award Schedule Contract Extension: IBIS Tek, LLC,
                                Contract Number GS-07F-5505R
6/23/10        A090222          Preaward Review of Multiple Award Schedule Contract Extension: Force 3, Inc.,
                                Contract Number GS-35F-0785J
6/24/10        A090108          Preaward Review of Multiple Award Schedule Contract Extension: Integrated Data
                                Services Inc., Contract Number GS-35F-0372J
7/6/10         A080070          Preaward Review of Multiple Award Schedule Contract Extension: Accenture, LLP,
                                Contract Number GS-35F-4692G
8/16/10        A090130          Limited Review of Multiple Award Schedule for the Period January 8, 2002 to
                                November 7, 2005: Cort Business Furniture, Contract Number GS-28F-7018G
8/24/10        A090140          Postaward Review of Multiple Award Schedule Contract: Systems Research and
                                Applications Corporation, Contract Number GS-35F-0735J
9/15/10        A080124          Limited Scope Postaward Review for the Period July 1, 2003 to December 29,
                                2008: ASAP Software Express, Inc., Contract Number GS-35F-4027D
9/16/10        A100148          Examination of a Change Order Proposal: Alutiiq International Solutions, LLC,
                                Contract Number GS-08P-08-JF-C-0005
10/7/10        A100117          Preaward Examination of Multiple Award Contract Extension: Dun & Bradstreet,
                                Inc., Contract Number GS-22F-9614D
10/12/10       A100156          Examination of a Claim: Acousti Engineering Company of Florida, a Subcontractor
                                to Dick Corporation, Contract Number GS-04P-01-EXC-0044
10/27/10       A090133          Limited Scope Postaward Review of Multiple Award Schedule for the Period July
                                29, 2002 to September 9, 2008: SeaArk Marine, Inc., Contract Number GS-07F-
                                0012J
11/2/10        A100167          Preaward Examination of Multiple Award Schedule Contract Extension: Affordable
                                Interior Systems, Inc., Contract Number: GS-29F-0006K
11/12/10       A100176          Preaward Examination of Multiple Award Schedule Contract Extension: SPARTA,
                                Inc., Contract Number GS-23F-0025L
11/16/10       A080057          Preaward Review of Multiple Award Schedule Contract Extension: The Sherwin-
                                Williams company, Contract Number GS-1OF-0004J
11/22/10       A100195          Preaward Examination of Multiple Award Schedule Contract Extension: Knight
                                Protective Service, Inc., Contract Number GS-07F-0266K
11/24/10       A090192          Preaward Review of Multiple Award Schedule Contract Extension: SHI International
                                Corporation, Contract Number GS-35F-0111K
11/24/10       A100193          Postaward Audit of Multiple Award Schedule Contract Extension: The Stratix
                                Corporation, Contract Number GS-3SF-080SR
12/14/10       A100177          Preaward Examination of Multiple Award Schedule Contract Extension: AAR
                                Mobility Systems, Contract Number GS-07F-0065L




36  Semiannual Report to the Congress
Appendix III–OIG Reports over 12 Months Old, Final Agency Action Pending
Date of	   Report
Report	    Number	                                 Title	

12/14/10   A100201   Preaward Examination of Multiple Award Schedule Contract Extension:
                     Government-Buys, Incorporated, Contract Number GS-3SF-0122S
12/27/10   A100172   Preaward Examination of Multiple Award Schedule Contract Extension: New
                     England Woodcraft, Inc., Contract Number GS-27F-0005
1/27/11    A100075   Preaward Review of Multiple Award Schedule Contract Extension: Cort Business
                     Services Corporation, Contract Number GS-28F-7018G
1/27/11    A100213   Examination of a Claim: Cobb Mechanical Contractors, Subcontractor to Caddell
                     Construction Company Incorporated, Contract Number GS-07P-05-UEC-3003
1/31/11    A100178   Examination of Construction Management Services Contract: Bovis Lend Lease
                     LMB, Inc., Contract Number GS-02P-04-DTC-0048, Modification No. PS14
1/31/11    A110022   Preaward Examination of Multiple Award Schedule Contract Extension: Cooper
                     Notification, Inc., Contract Number GS-07F-0167L
2/2/11     A100171   Examination of a Claim: Layton Construction Company, Inc., Contract Number
                     GS-08P-07-JFC-0016
2/18/11    A100181   Preaward Examination of Multiple Award Schedule Contract Extension: L.N. Curtis
                     & Sons, Contract Number GS-07F-0043L
2/24/11    A100003   Preaward Review of Multiple Award Schedule Contract Extension: McLane
                     Advanced Technologies, LLC, Contract Number GS-35F-0901P
3/9/11     A060119   Post Award Review of Multiple Award Schedule Contract: Fastenal Company,
                     Contract Number GS-06F-0039K
3/10/11    A100062   Preaward review of Multiple Award Schedule Contract Extension: Carahsoft
                     Technology Corporation, Contract Number GS-35F-0131R
3/16/11    A100168   Preaward Examination of Multiple Award Schedule Contract Extension: Johnson
                     Controls, Inc., Contract Number GS-07F-7823C
3/24/11    A110091   Preaward Examination of Multiple Award Schedule Contract Extension: K-Con,
                     Incorporated, Contract Number GS-07F-0216L
3/29/11    A100114   Preaward Review of Multiple Award Schedule Contract Extension: Ahura Scientific,
                     Inc., Contract Number GS-07F-6099R
3/30/11    A100145   Preaward Review of Multiple Award Schedule Contract Extension: TL Services, Inc,
                     Contract Number GS-06F-0062R




                                                                     October 1, 2011 – March 31, 2012 37
Appendix III–OIG Reports over 12 Months Old, Final Agency Action Pending
Date of	       Report		                                                                           Projected Final
Report	        Number	 Title	                                                                     Action Date

Internal Audits
07/31/07       A060190          Review of Multiple Award Schedule Program Contract Workload              04/15/2012
                                Management
09/30/09       A070118          Review of Consistency in Implementing Policy Across Acquisition          05/15/2012
                                Centers
09/30/09       A070171          Review of Program Performance Measurement for Procurement                05/15/2012
01/08/10       A090062          Audit of the General Services Administration’s Fiscal Year 2009          05/15/2012
                                Financial Statements
03/15/10       A090026          Review of Multiple Award Schedule Vendors’ Invoicing Practices           04/15/2012
                                Relative to Prompt-Payment Discounts
03/31/10       A080180          Opportunities Exist to Improve GSA’s Implementation of the E2            07/15/2012
                                Travel System
06/11/10       A090203          Review of Controls Over Contract Awards and Modifications within         05/15/2012
                                the Center for Information Technology Schedule Programs
11/09/10       A100123          FY 2010 Office of Inspector General Information Technology Security      06/15/2012
                                Audit of the Information Technology Solutions Shop System
12/23/10       A100078          Audit of the General Services Administration's Fiscal Year 2010          12/31/2012
                                Financial Statement
03/31/11       A100204          Review of Consistency in Implementing Policy Across Acquisition          04/15/2012
                                Centers – Temporary Extensions
03/31/11       A110072          Review of the Federal Acquisition Service's National Customer            07/15/2012
                                Service Center




38  Semiannual Report to the Congress
       Appendix IV–Government Contractor Significant Report Findings



The National Defense Authorization Act for Fiscal Year 2008, P.L. 110-181, requires each Inspector General appointed
under the Inspector General Act of 1978 to submit an annex on final, completed contract audit reports issued to the
contracting activity as part of its Semiannual Report to the Congress. The annex addresses significant audit findings –
unsupported, questioned, or disallowed costs in excess of $10 million – or other significant contracting issues. During
this reporting period, this office issued one contract audit report that met these requirements.

We initiated an audit of a multiple award schedule contract with National Instruments Corporation based on the findings
of a preaward audit of the company’s proposal to extend its existing contract. The preaward determined the company’s
sales monitoring systems did not ensure proper administration of the price reduction provisions and billing terms of the
contract, and discounts to commercial end-users were greater than those disclosed and offered to GSA. The contracting
officer asked the company to determine if price reductions occurred and to calculate any refund amount due the
government. The objective of the postaward audit was to determine whether the contractor’s refund calculation of
$145,452 accurately and completely represented monies owed the government due to non-compliance with contractual
Price Reductions and Price Adjustment clauses. The postaward audit found this amount to be inaccurate and incomplete
because the contractor did not consider end user agreements when determining whether commercial pricing would
trigger a price reduction/price adjustment. Based on the audit finding, the contractor provided a revised refund calculation
of $13,106,692, inclusive of overbillings and interest.




                                                                                       October 1, 2011 – March 31, 2012 39
              Appendix V–OIG Reports Without Management Decision



Section 5(a)(10) of the IG Act as amended, requires a summary of each report issued before the commencement of
the reporting period for which no management decision has been made by the end of the reporting period. GSA has
a system in place to track reports and management decisions. Its purpose is to ensure that recommendations and
corrective actions indicated by the OIG and agreed to by management are addressed as efficiently and expeditiously
as possible. This period there were no reports that met this requirement.




40  Semiannual Report to the Congress
                                Appendix VI–Peer Review Results



The Dodd-Frank Wall Street Reform Act requires each Inspector General to submit an appendix containing: the results
of any peer review conducted by another Office of Inspector General (OIG) during the reporting period or, if no peer
review was conducted, a statement identifying the date of the last peer review conducted; a list of any outstanding
recommendations from any peer review conducted by another OIG that have not been fully implemented, the status of
the recommendation, and an explanation why the recommendation is not complete; and a list of any peer reviews
conducted by the OIG of another Office of Inspector General during the reporting period, including a list of any
outstanding recommendations made from any previous peer review that have not been fully implemented.

The Office of Investigations’ last peer review (2010) was conducted by the Department of Energy OIG, which resulted
in an opinion that the Office of Investigations’ system of internal safeguards and management procedures were in
compliance with the quality standards established by the Council of the Inspectors General on Integrity and Efficiency
(CIGIE) and applicable U.S. Attorney General guidelines. The last peer review of the Office of Audits was conducted
in September 2009. No material findings were reported from any peer review. In addition, we did not conduct any peer
review of another OIG during this reporting period. As such, there are no outstanding recommendations made from
any peer reviews that have not been fully implemented. The Department of Justice Office of Inspector General is
scheduled to perform a peer review of the Office of Audits starting April 2012.




                                                                                   October 1, 2011 – March 31, 2012 41
                                     Appendix VII–Reporting Requirements


The table below cross-references the reporting                                     Supplemental Appropriations and Rescission Bill, the
requirements prescribed by the Inspector General Act of                            National Defense Authorization Act and the Dodd-Frank
1978, as amended, to the specific pages where they are                             Wall Street Reform Act are also cross-referenced to the
addressed. The information requested by the Congress                               appropriate page of the report.
in Senate Report No. 96-829 relative to the 1980


Requirement	                                                                                                                                         Page

  Inspector General Act

     Section 4(a)(2) – Review of Legislation and Regulations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

     Section 5(a)(1) – Significant Problems, Abuses, and Deficiencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1–9
     Section 5(a)(2) – Recommendations with Respect to Significant
     Problems, Abuses, and Deficiencies. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1–9

     Section 5(a)(3) – Prior Recommendations Not Yet Implemented . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

     Section 5(a)(4) – Matters Referred to Prosecutive Authorities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

     Sections 5(a)(5) and 6(b)(2) – Summary of Instances Where
     Information Was Refused . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . none

     Section 5(a)(6) – List of OIG Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

     Section 5(a)(7) – Summary of Each Particularly Significant Report . . . . . . . . . . . . . . . . . . . . . . . . . . . 1–9

     Section 5(a)(8) – Statistical Tables on Management Decisions on Questioned Costs . . . . . . . . . . . . . . 20

     Section 5(a)(9) – Statistical Tables on Management Decisions on
     Recommendations That Funds Be Put to Better Use. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

     Section 5(a)(10) – Summary of OIG Reports Issued Before the Commencement of the
     Reporting Period for Which No Management Decision Has Been Made . . . . . . . . . . . . . . . . . . . . . . . . 40

     Section 5(a)(11) – Description and Explanation for Any Significant
     Revised Management Decision. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . none

     Section 5(a)(12) – Information on Any Significant Management
     Decisions with Which the Inspector General Disagrees. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . none

  Senate Report No. 96-829

     Resolution of Audits. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

  National Defense Authorization Acts

     Public Law 104-106, 5 U.S.C. app. 3, § 5 note. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34

     Public Law 110-181. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39

  Dodd-Frank Wall Street Reform Act

     Peer Review Results. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41


42  Semiannual Report to the Congress
                           Appendix VIII–OIG Offices and Key Officials



Office of the Inspector General
Inspector General, Brian D. Miller (J)........................................................................................(202) 501-0450
Deputy Inspector General, Robert C. Erickson (JD)..................................................................(202) 501-0450
Director of Communications and Congressional Affairs, Dave Farley (JX).................................(202) 219-1062


Office of Counsel to the Inspector General
Counsel to the IG, Richard Levi (JC).........................................................................................(202) 501-1932


Office of Forensic Auditing, Evaluation, and Analysis
Director, Patricia D. Sheehan (JE)...........................................................................................(202) 273-4989


Office of Audits
Assistant IG for Auditing, Theodore R. Stehney (JA)................................................................(202) 501-0374
Principal Deputy Assistant IG for Auditing, Regina M. O’Brien (JAD).........................................(202) 501-0374
Director, Audit Planning, Policy, and Operations Staff, Lisa L. Blanchard (JAO)......................(202) 273-7271
Director, Administration and Data Systems Staff, Thomas P. Short (JAS)...............................(202) 501-1366
Director, Special Projects Office, Paul J. Malatino (JA)............................................................(202) 208-0021


Deputy Assistant Inspectors General for Auditing
Finance and Information Technology Audit Office, Carolyn Presley-Doss (JA-F) . ....................(202) 357-3620
Real Property Audit Office, Rolando N. Goco (JA-R)................................................................(202) 219-0088
Acquisition Programs Audit Office, Kenneth L. Crompton (JA-A)..............................................(703) 603-0189


Regional Inspectors General for Auditing
Northeast and Caribbean Regional Office, Steven D. Jurysta (JA-2) ........................................(212) 264-8620
Mid-Atlantic Regional Office, James M. Corcoran (JA-3)..........................................................(215) 446-4840
Southeast Sunbelt Regional Office, Nicholas V. Painter, (Acting), (JA-4)..................................(404) 331-5125
Great Lakes Regional Office, Adam R. Gooch (JA-5)...............................................................(312) 353-7781
The Heartland Regional Office, John F. Walsh (JA-6)...............................................................(816) 926-7052
Greater Southwest Regional Office, Grace D. McIver, (Acting), (JA-7)......................................(817) 978-2571
Pacific Rim Regional Office, James P. Hayes (JA-9).................................................................(415) 522-2744




                                                                                                      October 1, 2011 – March 31, 2012 43
                           Appendix VIII–OIG Offices and Key Officials



  Office of Investigations
  Assistant IG for Investigations, Geoffrey Cherrington (JI)..........................................................(202) 501-1397
  Deputy Assistant IG for Investigations, Lee Quintyne (JID)........................................................(202) 501-1397
  Director, Investigations Operations Division, Gerald R. Garren (JIB).......................................(202) 501-4583
  Director, Internal Operations Division, Bruce S. McLean (JII)..................................................(202) 208-2384


  Special Agents in Charge (SAC)
  Mid-Atlantic Regional Office, SAC Christopher P. Cherry (JI-W)..............................................(202) 252-0008
  Philadelphia Regional Office, SAC James E. Adams (JI-3).......................................................(215) 861-3550
  Northeast and Caribbean Regional Office, SAC James E. Adams (JI-2)...................................(215) 861-3550
  Boston Regional Office, SAC Luis A. Hernandez (JI-1).............................................................(617) 565-6820
  Southeast Regional Office, SAC James Taylor (JI-4)................................................................(404) 331-3084
  Ft. Lauderdale Resident Office, SA Dietrich Bohmer (JI-4M)....................................................(954) 356-6993
  Central Regional Office, SAC Stuart G. Berman (JI-5).............................................................(312) 353-7779
  Mid-West Regional Office, SAC John F. Kolze (JI-6)................................................................(816) 926-7214
  Denver Resident Office, SA Christopher C. Hamblen (JI-8)......................................................(303) 236-5072
  Southwest Regional Office, SAC Paul W. Walton (JI-7)............................................................(817) 978-2589
  Western Regional Office, SAC Bryan D. Denny (JI-9)..............................................................(415) 522-2755
  Laguna Niguel Resident Office, SA Theresa Quellhorst (JI-9L)................................................(949) 360-2214
  Northwest Regional Office, SAC Terry J. Pfeifer (JI-10)............................................................(253) 931-7654


  Office of Administration
  Assistant IG for Administration, Larry Lee Gregg (JP)...............................................................(202) 219-1041
  Deputy Assistant IG for Administration, Stephanie Burgoyne (JP).............................................(202) 273-5006
  Budget and Financial Management Office, Director Stephanie Burgoyne (JPB)........................(202) 273-5006
  Executive Resources Staff/Human Capital Officer, Jack Mossop (JPE).....................................(202) 501-0821
  Human Resources Division, Director Denise McGann (JPH)....................................................(202) 501-1734
  Information Technology Division, Director Rickey Eaton (JPM).................................................(703) 603-2323
  Facilities and Services Office, Supervisor Carol Mulvaney (JPF).............................................(202) 501-3119
  Contracting Office, Team Leader Myra R. Hayes (JPC)...........................................................(202) 501-2887




44  Semiannual Report to the Congress
Notes




        October 1, 2011 – March 31, 2012 45
                                        Notes




46  Semiannual Report to the Congress
Notes




        October 1, 2011 – March 31, 2012 47
                                        Notes




48  Semiannual Report to the Congress
Make
like
it’s
your
money!
It is.
To report suspected waste, fraud, abuse, or
mismanagement in GSA, call your


Inspector General’s Hotline
Toll-free 1-800-424-5210
Washington, DC metropolitan area
(202) 501-1780

or write:	 GSA, IG, Hotline Officer
	          Washington, DC 20405

or access the Web:	www.gsaig.gov/hotline.htm

Office of Inspector General
U.S. General Services Administration
Office of Inspector General
U.S. General Services Administration
1800 F Street, NW
Washington, DC 20405
http://www.gsaig.gov
